<html>
<title> - THE WAY FORWARD WITH FUSION CENTERS: CHALLENGES AND STRATEGIES FOR CHANGE</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



  THE WAY FORWARD WITH FUSION CENTERS: CHALLENGES AND STRATEGIES FOR 
                                 CHANGE

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON INTELLIGENCE,
                        INFORMATION SHARING, AND
                       TERRORISM RISK ASSESSMENT

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                          SEPTEMBBER 27, 2007

                               __________

                           Serial No. 110-73

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________


                  U.S. GOVERNMENT PRINTING OFFICE
48-968                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001







                     COMMITTEE ON HOMELAND SECURITY

               BENNIE G. THOMPSON, Mississippi, Chairman

LORETTA SANCHEZ, California,         PETER T. KING, New York
EDWARD J. MARKEY, Massachusetts      LAMAR SMITH, Texas
NORMAN D. DICKS, Washington          CHRISTOPHER SHAYS, Connecticut
JANE HARMAN, California              MARK E. SOUDER, Indiana
PETER A. DeFAZIO, Oregon             TOM DAVIS, Virginia
NITA M. LOWEY, New York              DANIEL E. LUNGREN, California
ELEANOR HOLMES NORTON, District of   MIKE ROGERS, Alabama
Columbia                             BOBBY JINDAL, Louisiana
ZOE LOFGREN, California              DAVID G. REICHERT, Washington
SHEILA JACKSON LEE, Texas            MICHAEL T. McCAUL, Texas
DONNA M. CHRISTENSEN, U.S. Virgin    CHARLES W. DENT, Pennsylvania
Islands                              GINNY BROWN-WAITE, Florida
BOB ETHERIDGE, North Carolina        MARSHA BLACKBURN, Tennessee
JAMES R. LANGEVIN, Rhode Island      GUS M. BILIRAKIS, Florida
HENRY CUELLAR, Texas                 DAVID DAVIS, Tennessee
CHRISTOPHER P. CARNEY, Pennsylvania
YVETTE D. CLARKE, New York
AL GREEN, Texas
ED PERLMUTTER, Colorado

       Jessica Herrera-Flanigan, Staff Director & General Counsel
                     Rosaline Cohen, Chief Counsel
                     Michael Twinchek, Chief Clerk
                Robert O'Connor, Minority Staff Director

                                 ______

 SUBCOMMITTEE ON INTELLIGENCE, INFORMATION SHARING, AND TERRORISM RISK 
                               ASSESSMENT

                     JANE HARMAN, California, Chair

NORMAN D. DICKS, Washington          DAVID G. REICHERT, Washington
JAMES R. LANGEVIN, Rhode Island      CHRISTOPHER SHAYS, Connecticut
CHRISTOPHER P. CARNEY, Pennsylvania  CHARLES W. DENT, Pennsylvania
ED PERLMUTTER, Colorado              PETER T. KING, New York (Ex 
BENNIE G. THOMPSON, Mississippi (Ex  Officio)
Officio)

                 Thomas M. Finan, Director and Counsel

                        Brandon Declet, Counsel

                   Natalie Nixon, Deputy Chief Clerk

        Deron McElroy, Minority Senior Professional Staff Member

                                  (ii)














                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Jane Harman, a Representative in Congress From the 
  State of California, and Chair, Subcommittee on Intelligence, 
  Information Sharing, and Terrorism Risk Assessment.............     1
The Honorable David G. Reichert, a Representative in Congress 
  From the State of Washington, and Ranking Member, Subcommittee 
  on Intelligence, Information Sharing, and Terrorism Risk 
  Assessment.....................................................     3
The Honorable Christopher P. Carney, a Representative in Congress 
  From the State of Pennsylvania.................................    21
The Honorable Charles W. Dent, a Representative in Congress From 
  the State of Pennsylvania......................................    53
The Honorable Norman D. Dicks, a Representative in Congress From 
  the State of Washington........................................    24
The Honorable James R. Langevin, a Representative in Congress 
  From the State of Rhode Island.................................    57
The Honorable Ed Perlmutter, a Representative in Congress From 
  the State of Colorado..........................................    19

                               Witnesses
                                Panel I

Ms. Eileen Larence, Director, Homeland Security and Justice, U.S. 
  Government Accountability Office:I22Oral Statement                  7
  Prepared Statement.............................................     9
Mr. Todd Masse, Specialist, Domestic Intelligence and 
  Counterterrorism, Congressional Research Service...............     5
Mr. John Rollins, Specialist, Terrorism, International Crime, 
  Intelligence, and Homeland Security, Congressional Research 
  Service........................................................     6

                                Panel II

Mr. Norman Beasley, Coordinator for Counter Terrorism, Maricopa 
  County Sheriff's Officer:
  Oral Statement.................................................    40
  Prepared Statement.............................................    42
Mr. Michael Mines, Deputy Assistant Director, Directorate of 
  Intelligence, Federal Bureau of Investigation:
  Oral Statement.................................................    37
  Prepared Statement.............................................    37
Mr. Jack Tomarchio, Principal Deputy Assistant Secretary, 
  Intelligence and Analysis, Department of Homeland Security:
  Oral Statement.................................................    27
  Prepared Statement.............................................    29

 
  THE WAY FORWARD WITH FUSION CENTERS: CHALLENGES AND STRATEGIES FOR 
                                 CHANGE

                              ----------                              


                           September 27, 2007

             U.S. House of Representatives,
                    Committee on Homeland Security,
     Subcommittee on Intelligence, Information Sharing and 
                                 Terrorism Risk Assessment,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:03 a.m., in 
Room 311, Cannon House Office Building, Hon. Jane Harman 
[chairwoman of the subcommittee] presiding.
    Present: Representatives Harman, Dicks, Langevin, Carney, 
Perlmutter, Reichert, and Shays.
    Ms. Harman. Good morning. The subcommittee will come to 
order.
    We are meeting today to receive testimony on the way 
forward with fusion centers, challenges and strategies for 
change.
    More than 6 years after 9/11, our nation has seen a 
revolution in information sharing, perhaps most dramatically at 
the state and local levels, with the creation of some 42 
intelligence fusion centers.
    A year ago this month, Charlie Allen, the department's 
chief intelligence officer, noted that, ``Fusion centers are 
recognized by the director of national intelligence as a center 
of gravity, key to the effective exchange and assessment of 
information between federal government and state and local 
partners.''
    These centers, staffed by police and sheriff's officers, 
public health authorities, private sector representatives and 
others, are an effective ground-up response to the need for 
more and better information about terrorist threats so 
communities can prepare and prevent rather than waiting for the 
federal government to arrive and save the day after 9/11.
    I applaud, and I know all members of this subcommittee 
applaud, the initiative of state and locals to figure out what 
data they need and how to get it to protect their neighborhoods 
and their communities.
    I think everyone recognizes that fusion centers hold 
tremendous promise and the Department of Homeland Security and 
the FBI are among those who share the view that they hold 
tremendous promise.
    Both of these entities have begun stationing hundreds of 
their employees onsite to assist in fusion center efforts.
    The members of this subcommittee, as I mentioned, have been 
strong supporters, as well. Together, we have visited four 
fusion centers in Los Angeles, Seattle, Denver and Baltimore, 
and we plan to see more.
    We have also made sure that the recently enacted 9/11 
Recommendations Act, H.R. 1, includes tools that DHS needs to 
help fusion centers with their information sharing missions, 
both locally and nationally.
    Our purpose in drafting the legislation this way was a 
simple one--to encourage the Department of Homeland Security to 
partner, I want to emphasize that word, partner more 
effectively with fusion centers and the FBI and other entities 
located there, not to dictate to them about who should be doing 
what, but to partner with them to determine what should be 
going on.
    While fusion centers have great potential, we acknowledge 
that they are not without challenges, and that is why we are 
here today.
    I commend CRS and GAO for the helpful research they have 
done on fusion centers, research that can help us structure 
useful federal roles going forward. CRS and GAO have both 
raised issues about the fusion center future that need clear 
answers.
    Number one, the absence of a national strategy. Many fusion 
centers are essentially collocation centers. They lack skills 
and resources to develop or disseminate accurate, actionable 
and timely information in order for communities that they 
represent to be protected.
    They lack sustainable resources. They lack a common 
baseline, one that consistently focuses people on figuring out 
what facts they need to protect against particular threats.
    After reading the reports, I am baffled why DHS and the FBI 
still haven't consolidated their multiple information sharing 
systems so fusion center staff doesn't need to log onto three, 
four or five different networks to determine what threats they 
are waking up to each morning.
    The department promised us earlier this year that it would 
be looking into ways to make HSIN, H-S-I-N, and RISSNET work 
together better. I hope that the department representative on 
our second panel will have a progress report.
    The reports also raise other important questions about 
privacy and civil liberties training, something we have 
explored in other hearings, about the disturbing fact that DHS 
and the FBI don't recognize each other's security clearances at 
fusion centers. This is obviously absurd.
    All of us hope for success and this hearing should move us 
forward, but before turning to our witnesses, let me use this 
podium to deliver two other messages to the Department of 
Homeland Security.
    In addition to the fusion center issue, the 9/11 Act, H.R. 
1, included a framework for the interagency threat assessment 
and coordination group, the ITACG, at the National 
Counterterrorism Center. It is a lot of acronyms, but the 
National Counterterrorism Center is our national fusion center.
    The ITACG is a common sense idea that should help us 
incorporate state and local people in the fashioning of 
intelligence fusion products so that when they reach state and 
local entities, including fusion centers, they are useful.
    We have had a long and sad fight about this effort to 
include state and local people in the ITACG. Mr. Reichert and I 
and the chairman and ranking member yesterday sent yet another 
letter to the Department of Homeland Security, but I was 
informed late last evening by the deputy at DHS, Michael 
Jackson, that finally a memorandum of agreement on this subject 
was signed either last night or early this morning.
    We look forward to reviewing it, and we look forward to a 
visit to the NCTC with Mr. Jackson to make certain that state 
and local people are properly in place and that, at long last, 
they are contributing what is necessary to fashioning our 
national fusion center products.
    The other issue I just want to mention is that I understand 
from reading the press that the department is going to proceed 
next Monday in standing up its new office to task military 
intelligence satellites to do certain jobs focused on the 
homeland.
    This was the subject of a hearing a few weeks ago. This 
committee, on a bipartisan basis, has requested the legal 
under- pinnings of this document. Some of us sent a letter 
urging a moratorium on the operation of this function until we 
get those documents. My understanding is we don't have those 
documents and I think the department's action is ill advised.
    Let me just welcome our witnesses and now yield to the 
ranking member for his opening statement before we start the 
hearing.
    Mr. Reichert. Thank you, Madam Chair. Good morning.
    Our hearing today focuses on fusion centers and is made 
possible by the longstanding efforts of this subcommittee to 
focus on the critical information sharing efforts taking place 
at fusion centers.
    And I think when most people think about fusion centers, 
they think about the collection of INTEL and the fusion of the 
INTEL, the analysis of the intelligence gathered, but there is 
more to fusion centers than that. It is a fusion of people and 
it is a fusion of organizations.
    The information coming together, the intelligence coming 
together is really one of the easier aspects of this concept to 
accomplish. One of the harder things is getting the 
organizations to recognize each other as equals in this effort 
and the thing that makes it work is really, in my opinion, the 
fusion of the personalities. And the more that you can include 
the personalities from the different organizations, the more 
that you will see this really does become a fusion center that 
is functioning in the way that we would all like to see this 
concept finally take place.
    So we know it is going to be a long process. We know there 
is going to be some hiccups in the process. But I think, at 
least from my experience--I have gone totally off of my 
speaking points here. I am just speaking straight from my heart 
here.
    I have 33 years of experience in law enforcement, local law 
enforcement, starting in a patrol car, hostage negotiator, SWAT 
commander, precinct commander, homicide investigator, and, 
finally, as the sheriff in Seattle. And in every one of those 
positions throughout my 33-year career, I have had the 
opportunity to work and interact with the federal agencies.
    So not only at a base street level, working with the agents 
on the street from every federal agency that you could imagine, 
but also from the level of the sheriff's office, one of the 
largest sheriff's offices in the nation, and working with the 
SACs of those organizations and trying to come up with a way 
that we could all work together to make this community safer.
    So when you do that, you make friends. And when you make 
friends, you make progress and that is really when the hard 
work gets done.
    As a part of working together and building those 
relationships, wanting to share information and analyze 
information, we also want to be very cognizant of our civil 
liberties, and the chairwoman mentioned that as one of our 
concerns, also.
    We appreciate the studies that you have done and recognize 
that there is going to be some criticism shared with us today 
and we think that is important for us to hear. But we also want 
to recognize the progress that has been made.
    And, again, I know, from my day on the street, how it was 
then and how it is today and there is tremendous progress that 
has been made. So that progress is made when the criticism is 
received in a way that is constructive and is presented in a 
constructive way.
    So we hope that today that constructive criticism is shared 
with us and it is taken in a way that is constructive, so that 
we can all move forward and make sure that our communities are 
safe and this country is safe and that we continue to be a free 
nation with all of our civil liberties protected. That is the 
job of all of us in this room.
    And, Madam Chair, I yield and thank you for the opportunity 
to share my thoughts.
    Ms. Harman. I thank the ranking member for his comments and 
agree with all of them. I think your experience brings great 
value to this subcommittee.
    Other members of the subcommittee are reminded that under 
the committee rules, opening statements may be submitted for 
the record.
    Now it is time to welcome our first panel. Our first 
witness, Todd Masse, is currently a specialist in domestic 
intelligence and counterterrorism with the CRS, the 
Congressional Research Service. In this position, he provides 
nonpartisan counterterrorist and domestic intelligence analysis 
to members of Congress and our staffs.
    Prior to joining CRS, he spent a decade with the FBI in the 
counterintelligence and counterterrorism fields. He served as 
both an intelligence research specialist and, subsequently, a 
strategic intelligence advisor. He has worked closely with 
senior executives of the FBI on strategic planning for 
intelligence and counterintelligence in identifying and 
assessing the foreign intelligence and terrorist threats to the 
U.S.
    Our second witness, John Rollins, is a CRS employee who 
serves as a specialist in terrorism and international crime. 
Prior to joining CRS, he was the chief of staff of the 
Department of Homeland Security's Office of Intelligence. Mr. 
Rollins' career includes a variety of analytic, legal and 
management positions in the Army, FBI, CIA, DIA, U.S. Marine 
Corps, Delta Force, and the United Nations.
    This man, sadly, cannot hold a job. He is a licensed 
attorney and graduate of the senior executive fellowship 
program at Harvard University.
    Our third witness, Eileen Larence, currently serves as a 
director for homeland security and justice issues at the GAO, 
where she manages Congressional requests to assess various 
homeland security issues. These include assessing the state of 
homeland security information sharing since 9/11 and the 
protection of the nation's most critical infrastructure.
    And by the way, I think you have all heard me in past 
hearings commend the department for a lot of progress on 
identifying what that infrastructure ought to be.
    Ms. Larence has a master's in public administration and 
extensive experience at GAO.
    Without objection, the witnesses' full statements will be 
inserted in the record and I now ask each of you to summarize 
for 5 minutes or less, beginning with Mr. Masse.

STATEMENT OF TODD MASSE, SPECIALIST, DOMESTIC INTELLIGENCE AND 
        COUNTERTERRORISM, CONGRESSIONAL RESEARCH SERVICE

    Mr. Masse. Chairwoman Harman, Ranking Member Reichert and 
members of the committee, my name is Todd Masse and I am a 
specialist in domestic intelligence and counterterrorism with 
the Congressional Research Service.
    I am joined today by my colleague and coauthor, John 
Rollins, who is a specialist in intelligence and international 
crime.
    Per your instructions, we will keep our opening remarks 
brief to allow ample time for questions and answers.
    You have asked us to share the findings of our analysis 
with respect to state fusion centers. Our research and analysis 
are in the publication of the CRS report, ``Fusion Centers: 
Issues and Options for Congress.'' A summary of this report has 
been submitted for the record.
    I will speak to the fusion center value proposition, risks 
to the fusion center concept and other descriptive and analytic 
findings.
    Mr. Rollins will then discuss federalism and the federal 
role in supporting fusion centers, as well as options for 
Congress.
    Before sharing a summary of our substantive findings, I 
would like to first make a few brief remarks about our research 
methodology. In order to reach the greatest amount of fusion 
centers and gather the most comprehensive set of data, CRS 
designed and fielded an original survey.
    We conducted in-depth interviews with 36 fusion center 
representatives. We also consulted with interested federal 
stakeholders, including the Department of Homeland Security, 
the Federal Bureau of Investigation, the program manager for 
the information sharing environment.
    We attended the first annual national fusion center 
conference and held our own fusion center seminar, at which 
fusion center representatives from Maryland, Virginia and the 
District of Columbia were in attendance. We also visited a 
number of fusion centers, including the Maryland coordination 
and analysis center in Baltimore.
    The creation of post-9/11 fusion centers does not represent 
a totally new concept, but suggests an extension of pre-9/11 
state and local law enforcement intelligence entities. Most 
state police agencies have run intelligence or analytic units 
for decades.
    Many of the fusion centers examined for this report were 
the outgrowth of those units, prompting some to refer to fusion 
centers as ``state police intelligence units on steroids.''
    However, the function of sharing classified weapons of mass 
destruction, terrorism information and homeland security 
information is new.
    The fusion center value proposition is relatively 
straightforward. By integrating various streams of information 
and intelligence, including that from the federal government, 
state, local and tribal governments, as well as the private 
sector, a more accurate picture of risks to people, economic 
infrastructure and communities can be developed and translated 
into protective action.
    While we believe the fusion center value proposition has 
substantial merit and potential, developing the appropriate 
skill sets, resources and intelligence philosophy to implement 
that value proposition is essential.
    We identified at least four risks of the potential future 
development of fusion centers. The first is intelligence 
philosophy; the second, civil liberty and privacy concerns; 
third, time concerns; and, fourth, sustainment funding.
    Fusion centers roles and responsibilities. Many of the 
first wave fusion centers, those created after 9/11, were 
solely focused on counterterrorism. Today, less than 15 percent 
of the fusion centers describe their mission as solely 
counterterrorism.
    Budgets. Annual budgets for the fusion centers range from 
the tens of thousands to several million dollars, with one 
center at over $15 million. Federal funding ranges from zero to 
100 percent of fusion center budgets, with the average and 
median percentage of federal funding at approximately 31 and 21 
percent, respectively.
    Thus, it appears, on the whole, fusion centers are 
predominantly state and local funded.
    Mr. Rollins will now speak to federalism, the federal role 
in supporting the fusion centers, and options for Congress.

     STATEMENT OF JOHN ROLLINS, SPECIALIST, TERRORISM AND 
      INTERNATIONAL CRIME, CONGRESSIONAL RESEARCH SERVICE

    Mr. Rollins. Good morning.
    Ms. Harman. The chair recognizes Mr. Rollins. I gather you 
are sharing your time for testifying, is that correct?
    Mr. Rollins. That is correct. I will be brief.
    I would like to touch briefly on two issues, federalism and 
options for Congress.
    Federal role in supporting fusion centers. Part of the 
challenge from the federal perspective has been how to guide 
and support, in your chairwoman, be a partner, but not dictate 
how these state-established fusion centers manage their 
internal priorities.
    Federal activities that may address these concerns include 
providing strategy-based guidance to be adopted by state fusion 
centers, providing technical assistance and training, providing 
financial resources to support fusion center startup and 
sustainability costs, and providing personnel resources.
    Currently, DHS' office of intelligence has 17 personnel 
assigned to state fusion centers. The FBI has over 250 
personnel assigned to state fusion centers.
    Options for Congress. It should be noted that every fusion 
center challenge does not necessarily have a federal solution. 
However, should Congress seek to act, our research suggests two 
tiers of options for Congressional consideration.
    Tier one, national strategy and sustainable resources. At 
present, a national fusion center strategy does not exist. One 
option for Congress is to recommend that the executive branch 
draft an interagency national fusion center strategy.
    Naturally, we recommend that state and regional fusion 
center representatives be a part of developing this strategy.
    Second, address the sustainment funding question. The 
question of sustainment funding was foremost in the minds of 
state fusion center leaders. Should federal funding to fusion 
centers be continued? If so, to what end? And what conditions 
should Congress place on the federal funds that are provided to 
fusion centers?
    The second tiered option focuses on creating a true and 
trusted partnership. Further development of the relationship 
between federal law enforcement and intelligence community 
organizations with state fusion centers may prove helpful.
    The following activities may facilitate relationship-
building efforts. Agreeing upon federal and state mission 
objectives, enhancing training and outreach efforts, and 
enhancing information access and management.
    This concludes our opening remarks. Thank you for convening 
this important hearing. We look forward to any questions you 
may have.
    [The joint statement of Mr. Masse and Mr. Rollins 
follows:]\1\
---------------------------------------------------------------------------
    \1\ [See CRS Report for Congress, ``A Summary of Fusion Centers: 
Core Issues and Options for Congress'', September 19, 2007, Todd Mass 
and John Rollins, Prepared for Member and Committees of Congress, 
maintained in committee file.]
---------------------------------------------------------------------------
    Ms. Harman. Thank you, Mr. Rollins.
    The chair now recognizes Ms. Larence. You are recognized 
for a 5-minute summary of your prepared testimony.

 STATEMENT OF EILEEN LARENCE, DIRECTOR, HOMELAND SECURITY AND 
     JUSTICE ISSUES, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Larence. Thank you. Madam Chair, members of the 
subcommittee, I am pleased to be here today to summarize the 
preliminary results of our reviews of state and local 
information fusion centers. We expect to issue a final report 
next month.
    Madam Chair, as you recognize, after 9/11, states and major 
urban areas realized they needed to fill a void. They needed 
their own capability to collect, analyze and share terrorism 
information, since the federal government could not meet their 
unique needs.
    They also realized they could be important eyes and ears to 
provide the government information, especially on homegrown 
terrorism. So states and localities created fusion centers, 
with personnel from federal, state and local law enforcement 
and homeland security organizations and, in some cases, the 
National Guard, emergency responders or the private sector.
    The federal government, in turn, realized centers could be 
a critical mode in the information sharing environment that the 
Congress called for and so decided to build a national network 
of centers, which DHS and DOJ are to support with grants, 
technology, training and other help.
    This spring, we interviewed directors in 50 states, D.C. 
and eight urban areas and learned that centers vary 
tremendously, that federal help to date will address, but not 
fully resolve their primary challenges, and that they are 
concerned about the federal long term commitment to sustaining 
centers.
    More specifically, we learned that centers in 35 states, 
D.C. and seven localities consider themselves operational, but 
this ranged tremendously from having five to 80 personnel and 
from a few to 20 participating agencies.
    Most centers are relatively new. Thirty-four were opened 
since 2004. Twenty of them focused on terrorism, as well as 
traditional crime, and 18 others said they also focused on 
other hazards. They did so because they recognized that crime 
can be a precursor to terrorism, for example, drug money can 
fund terrorist acts, and that having more members could mean 
more resources.
    Law enforcement organizations, as you recognize, lead most 
centers and 12 are collocated with the FBI. Most centers can 
take tips from the public that they can share with federal 
agencies and provide products such as alerts, bulletins and in-
depth reports.
    Centers most frequently identified six major challenges 
that federal support to date is helping to address, but may not 
fully resolve. The first is fundamentally about information. 
Some 30 centers raised this issue, from having too many systems 
to getting too much information, often redundant, thereby 
clogging their operations.
    DHS and DOJ each provide centers access to unclassified and 
some classified systems. A federal working group is reviewing 
ways to streamline this access and, as you acknowledged, an 
interagency threat assessment center, made permanent in the 9/
11 Commission Act, is to provide consolidated terrorism 
information to states and localities. But the center is still 
forming and oversight could help ensure its progress.
    Second, security clearances. Thirty-two centers said it 
takes too long to get clearances from DHS and DOJ and 19 said 
the agencies don't always honor each other's clearances, known 
as reciprocity. Even the law and executive order mandate it.
    The agencies have each provided states and localities about 
500 clearances and the goal is to issue them faster, but they 
were not aware or nor addressing the issue about reciprocity.
    Third, guidance. Centers appreciated the guidelines DHS and 
DOJ jointly issued to date and that were codified in the 9/11 
Act and the technical support agencies provide. But some 
centers need more specific operating guidance or how-to steps, 
such as how to share information while protecting civil 
liberties.
    The national fusion center coordination group has drafted a 
set of baseline capabilities for centers that provide them some 
additional guidance, but not yet the details they need.
    Fourth, training. Centers want help determining which of 
the many courses they should use, especially for advanced 
training, and in funding them, as well as common training 
standards and a curricula for analysts. The baseline 
capabilities draft addresses training, but not yet standards 
and defined courses.
    Fifth, 43 centers identified personnel issues, 37 had 
challenges getting detailees from their members agencies and 20 
said finding, attracting and paying analysts and retaining them 
because of competition for their skills was difficult.
    The FBI has personnel in three-quarters of the centers to 
date and DHS has personnel in 17, with plans to staff 18 more 
by the end of 2008. This helps, but centers are still concerned 
about meeting staffing needs, especially in the long run.
    Finally, 54 of the 58 centers pointed to funding 
challenges, 28 cited competition for limited state and local 
funds, and 35 cited complex, restricted, uncertain and 
declining federal grants as issues.
    DHS has provided about $131 million in grants through 2006 
that states and localities use for fusion related activities, 
made support for centers a top priority for law enforcement 
grants, and expanded allowable costs and timeframes for 
spending the money.
    But centers are worried about sustaining operations over 
the long term. Since the federal government expects to depend 
on centers, while it cannot commit future resources, we are 
recommending that it determine and articulate whether it 
expects to have a long term role in sustaining centers as 
critical counterterrorism partners.
    Madam Chair, that concludes my remarks and I would be happy 
to answer questions.
    [The statement of Ms. Larence follows:]

                Prepared Statement of Eileen R. Larence

    Madam Chair, Ranking Member, and Members of the Subcommittee:
    I appreciate the opportunity to participate in today's hearing to 
discuss our ongoing work on state and local fusion centers. Since the 
events of September 11, 2001, most states and some local governments 
have, largely on their own initiative, established fusion centers to 
address gaps in homeland security and law enforcement information 
sharing by the federal government and to provide a conduit of this 
information within the state. Although fusion centers vary because they 
were primarily established to meet state and local needs, a fusion 
center is generally ``a collaborative effort of two or more agencies 
that provide resources, expertise, and information to the center with 
the goal of maximizing their ability to detect, prevent, investigate, 
and respond to criminal and terrorist activity.'' \1\ Fusion centers 
may include a range of federal, state, and local entities and collect 
and analyze information related to homeland security, terrorism, and 
law enforcement.
---------------------------------------------------------------------------
    \1\ See Global Justice Information Sharing Initiative, Fusion 
Center Guidelines, Developing and Sharing Information and Intelligence 
in a New Era, Guidelines for Establishing and Operating Fusion Centers 
at the Local, State, and Federal Levels--Law Enforcement Intelligence, 
Public Safety, and the Private Sector (August 2006).
---------------------------------------------------------------------------
    With information-sharing weaknesses recognized as a major 
contributing factor in the nation's lack of preparedness for the 
September 11 attacks, a number of information-sharing initiatives were 
mandated by the Homeland Security Act of 2002 and the Intelligence 
Reform and Terrorism Prevention Act of 2004 (Intelligence Reform Act). 
The Homeland Security Act requires that the President, among other 
things, prescribe and implement procedures under which federal agencies 
can share relevant and appropriate homeland security information with 
other federal agencies and with appropriate state and local personnel, 
such as law enforcement agencies and first responders.\2\ The 
Intelligence Reform Act, as amended in August 2007 by the Implementing 
Recommendations of the 9/11 Commission Act of 2007 (9/11 Commission 
Act), mandates a more extensive information-sharing regime.\3\ It 
requires the President to take action to facilitate the sharing of 
terrorism and homeland security information by establishing an 
Information Sharing Environment (ISE). This environment is to combine 
policies, procedures, and technologies that link people, systems, and 
information among all appropriate federal, state, local, and tribal 
entities and the private sector. This act also requires, among other 
things, that the President appoint a program manager to oversee 
development and implementation of the ISE, which the President did in 
April 2005.
---------------------------------------------------------------------------
    \2\ See Pub. L. No. 107-296, Sec. 892, 116 Stat. 2135, 2253--55 
(2002).
    \3\ See Pub. L. No. 108-458, Sec. 1016, 118 Stat. 3638, 3664--70 
(2004), amended by Pub. L. No. 110-53, Sec. 504, 121 Stat. 266, 313--17 
(2007).
---------------------------------------------------------------------------
    Recognizing that state and local fusion centers represent a 
critical source of local information about potential threats and a 
mechanism for providing terrorism-related information and intelligence 
from federal sources, the Program Manager for the ISE (PM-ISE),\4\ the 
Department of Homeland Security (DHS), and the Department of Justice 
(DOJ) are taking steps to partner with and leverage fusion centers as 
part of the overall information sharing environment. The PM-ISE issued 
a plan for implementing the ISE in November 2006 that incorporated 
presidentially approved recommendations for federal, state, local, and 
private sector information sharing. Recognizing that the collaboration 
between fusion centers and with the federal government marks a 
tremendous increase in the nation's overall analytic capacity that can 
be used to combat terrorism, the plan envisions that the federal 
government, through the ISE, will rely on a nationwide network of 
fusion centers as the cornerstone of information sharing with state and 
local governments. Under the plan, DHS and DOJ are to work with states 
to designate a primary fusion center to serve as the statewide or 
regional hub to interface with the federal government and through which 
to coordinate the gathering, processing, analysis, and dissemination of 
terrorism-related information.
---------------------------------------------------------------------------
    \4\ On June 2, 2005, the President issued a memorandum placing the 
PM-ISE and its staff within the Office of the Director of National 
Intelligence.
---------------------------------------------------------------------------
    In addition, the 9/11 Commission Act contains several provisions 
related to fusion centers.\5\ For example, the act requires the 
Secretary of DHS, in consultation with the Attorney General, the PM-
ISE, and others, to establish a state, local, and regional fusion 
center initiative within DHS to establish partnerships with fusion 
centers that will, among other things, provide operational and 
intelligence advice and assistance, as well as management assistance, 
and facilitate close communication and coordination between fusion 
centers and DHS. In addition, the initiative is to provide training to 
fusion centers and encourage the centers to participate in terrorism 
threat-related exercises conducted by DHS.
---------------------------------------------------------------------------
    \5\ See Pub. L. No. 110-53 Sec. 511, 121 Stat. at 317--24 (adding 
section 210A to subtitle A, title II of the Homeland Security Act, Pub. 
L. No. 107-296, 116 Stat. 2135).
---------------------------------------------------------------------------
    My testimony today discusses our draft report on state and local 
fusion centers. The report is currently at DHS, DOJ, and the PM-ISE for 
review and comment and we expect to issue it next month. Specifically, 
I will discuss (1) the stages of development and characteristics of 
state and local fusion centers and (2) the extent to which efforts 
under way by the PM-ISE, DHS, and DOJ help to address some of the 
challenges identified by fusion centers.
    In conducting this work, we reviewed relevant directives, plans, 
and documents and interviewed officials--including many of those from 
the PM-ISE, DHS, and DOJ--who are involved with those entities' efforts 
to support fusion centers. In addition, we spoke with officials from 
organizations conducting research on state and local information 
sharing, including officials at the Congressional Research Service 
(CRS) who released a report in July 2007 on fusion centers.\6\ We also 
conducted semistructured telephone interviews with officials from all 
50 states, the District of Columbia, and 8 local jurisdictions. 
Specifically, from February through May 2007, we spoke with the 
director (or his or her designee) of every state fusion center, the 
District of Columbia center, and 8 local centers to obtain information 
about the centers' characteristics, challenges encountered, and support 
received from DHS and DOJ.\7\ Our selection criteria for local fusion 
centers included their relationship with the state fusion center, their 
stage of development, and geographic diversity. While we did contact 
officials in all state fusion centers, we did not contact officials in 
all local fusion centers; therefore our results are not generalizable 
to the universe of fusion centers.\8\ Finally, to obtain detailed 
information about centers' operations and challenges encountered, we 
conducted site visits to fusion centers in Atlanta, Georgia; Phoenix, 
Arizona; Richmond, Virginia; Baltimore, Maryland; West Trenton, New 
Jersey; and New York City, New York. We performed our work from August 
2006 through September 2007 in accordance with generally accepted 
government auditing standards.
---------------------------------------------------------------------------
    \6\ See Congressional Research Service, Fusion Centers: Issues and 
Options for Congress, RL34070 (Washington, D.C.: July 6, 2007).
    \7\ For purposes of this report, we use ``local fusion center'' to 
refer to centers established by major urban areas, counties, cities, 
and intrastate regions.
    \8\ Data were not available to determine the total number of local 
fusion centers.

    Summary
    Established by state and local governments generally to improve 
information sharing and to prevent terrorism or other threats, fusion 
centers across the country are in varying stages of development--from 
operational to early in the planning stages. Officials in 43 of the 58 
fusion centers we contacted described their centers as operational as 
of September 2007.\9\ Thirty-four of the operational centers are 
relatively new, having been opened since January 2004, while 9 centers 
opened within the couple of years after the attacks of September 11. 
The majority had missions and scopes of operations that included more 
than just counterterrorism-related activities, such as a focus on all 
crimes. Adopting a broader focus helped provide information about all 
threats and increased the center's sustainability, for instance, by 
including additional stakeholders who could provide staff and support. 
Law enforcement entities, such as state police or state bureaus of 
investigation, are the lead or managing agencies in the majority of the 
operational centers we contacted. However, the centers varied in their 
staff sizes and partnerships with other agencies. At least 34 of the 43 
operational fusion centers we contacted reported that they had federal 
personnel assigned to their centers. Thus far, products disseminated 
and services provided vary from bulletins to in-depth reports.
---------------------------------------------------------------------------
    \9\ We contacted all 50 states, the District of Columbia, and 8 
local areas. However, 1 state did not plan a fusion center. For that 
reason, we have responses from 58 fusion centers--43 operational and 15 
in the planning or early stages of development.
---------------------------------------------------------------------------
    In light of the importance of fusion centers in facilitating 
information sharing among levels of government, DHS and DOJ have 
several efforts under way that begin to address challenges that fusion 
center officials identified in establishing and operating their 
centers.\10\ DHS and DOJ have made efforts to provide fusion centers 
access to federal information systems, but some fusion center officials 
cited challenges accessing relevant, actionable information and 
managing multiple information systems. As a result, these center 
officials said that their ability to receive and share information with 
those who need it may be limited. Additionally, both DHS and the 
Federal Bureau of Investigation (FBI) have provided clearances to state 
and local officials and have set timeliness goals for the issuance of 
new clearances, but some fusion center officials told us they had 
encountered challenges obtaining and using security clearances.
---------------------------------------------------------------------------
    \10\ We present information about challenges encountered by 58 
fusion centers--those in all stages of development--as they were 
establishing and operating their centers. Fusion centers may have 
encountered more than one challenge related to a particular area, for 
example, related to guidance and training.
---------------------------------------------------------------------------
    Further, while law and executive order provide that a security 
clearance granted by one federal agency should generally be accepted by 
other agencies, officials also encountered difficulties with federal 
agencies, particularly DHS and FBI, accepting each others' clearances. 
Notwithstanding DHS and FBI efforts to deploy personnel to fusion 
centers and DHS's grant funding to support their establishment and 
enhancement, fusion center officials noted challenges obtaining 
personnel and ensuring sufficient funding to sustain the centers. To 
help address funding issues, DHS has made several changes to address 
restrictions on the use of federal grants funds. Finally, officials at 
31 of the 58 centers said they had challenges training their personnel, 
and officials at 11 centers expressed a need for the federal government 
to establish standards for fusion center analyst training to help 
ensure that analysts have similar skills. DHS and DOJ have initiated a 
technical assistance program for Fusion centers. They have also 
developed a set of baseline capabilities, but the document is in draft 
as of September 2007.
    Because of officials' concerns about sustaining their centers and 
recognizing that doing so is critical if the federal government's 
nationwide network of fusion centers is to succeed, in our draft 
report, we are recommending that the federal government determine and 
articulate its long-term fusion center role and whether it expects to 
provide resources to centers to help ensure their sustainability.

State and Local Fusion Centers Vary in Their Stages of Development and 
Characteristics
    Since September 2001, almost all states and several local 
governments have established or are in the process of establishing 
fusion centers. Officials in 43 of the 58 fusion centers we contacted 
described their centers as operational as of September 2007, ranging 
from having limited operations and functionality to being fully 
operational and functional. Specifically, officials in 35 states, the 
District of Columbia, and 7 local jurisdictions we contacted described 
their fusion centers as operational. Officials in 14 states and 1 local 
jurisdiction considered their centers to be in the planning or early 
stages of development, and 1 state did not plan to have a fusion 
center, as shown in figure 1.

Figure 1: Reported Stage of Development for Fusion Centers We 
Contacted, as of September 2007 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<SUP>Source:</SUP> GAO</SUP> analysis</SUP> of</SUP> information</SUP> 
provided</SUP> by</SUP> fusion</SUP> center</SUP> officials</SUP>; 
<SUP>Map,</SUP> Map</SUP> Resources.
    </SUP>Officials cited a variety of reasons why their state or local 
area established a fusion center. To improve information sharing--
related to homeland security, terrorism, and law enforcement--among 
federal, state, and local entities and to prevent terrorism or threats 
after the attacks of September 11 were the most frequently cited 
reasons. Thirty-four of the operational centers are relatively new, 
having been opened since January 2004, while 9 centers opened in the 
couple of years after the attacks of September 11. The majority had 
missions and scopes of operations that included more than just 
counterterrorism-related activities. For example, 23 of the 36 
operational fusion centers that provided us mission statements had 
missions that involved collecting, analyzing, and disseminating 
criminal as well as terrorism-related information. Further, 11 fusion 
centers had missions that involved enhancing, supporting, or 
coordinating information and intelligence dissemination to both law 
enforcement and homeland security agencies. Adopting a broader focus 
helped provide information about all threats, because of the link of 
many crimes to terrorist activity, and increased the centers' 
sustainability, for instance, by including additional stakeholders.
    Law enforcement entities, such as state police or state bureaus of 
investigation, are the lead or managing agencies in the majority of the 
operational centers we contacted. However, the centers varied in their 
staff sizes and partnerships with other agencies. A few centers we 
contacted had fewer than 5 employees, while others had over 80. At 
least 34 of the 43 operational fusion centers we contacted reported 
that they had federal personnel assigned to their centers. For example, 
DHS has assigned intelligence officers to 17 of the operational centers 
included in our review. About three quarters of the operational centers 
we contacted also reported that the FBI has assigned personnel, 
including intelligence analysts and special agents, to their centers. 
Additionally, 12 of the operational centers we contacted were colocated 
in an FBI field office or with an FBI task force. Finally, 19 of the 43 
operational centers reported that they had other DHS and DOJ components 
represented in their centers, including personnel from Customs and 
Border Protection; Immigration and Customs Enforcement; United States 
Secret Service; United States Coast Guard; Transportation Security 
Administration; United States Attorneys Office; Bureau of Alcohol, 
Tobacco and Firearms; Drug Enforcement Administration; or the United 
States Marshals Service.
    Many fusion centers reported having access to DHS's and DOJ's 
unclassified networks or systems, such as the Homeland Security 
Information Network (HSIN) and Law Enforcement Online (LEO), 
containing, among other things, terrorism and related information.\11\ 
For example 40 of the 43 operational centers reported they had access 
to HSIN, while 39 reported having access to LEO. In addition, 16 of the 
43 centers said they had or were in the process of obtaining access to 
DHS's classified network of secret-level homeland security data, and 23 
reported they had or were in the process of obtaining access to FBI's 
classified systems containing, among other things, secret-level 
investigative case files. Products disseminated and services provided 
also vary. Fusion centers reported issuing a variety of products, such 
as daily and weekly bulletins on general criminal or intelligence 
information and intelligence assessments that, in general, provide in-
depth reporting on an emerging threat, group, or crime. In addition 
some centers provide investigative support for law enforcement 
officers.
---------------------------------------------------------------------------
    \11\ HSIN serves as DHS's primary nationwide information-sharing 
tool for communicating sensitive but unclassified homeland security 
information. LEO serves as a real-time online controlled access 
communications and information-sharing data repository for sensitive 
but unclassified information about, among other things, antiterrorism, 
intelligence, law enforcement, and criminal justice.

    Federal Agencies' Efforts to Support Fusion Centers Help to Address 
Some Reported Challenges
    DHS and DOJ, recognizing the importance of fusion centers in 
information sharing, have undertaken efforts that begin to address 
challenges fusion center officials identified in establishing and 
operating their centers, such as accessing information, obtaining 
security clearances, obtaining and retaining personnel, obtaining 
funding, and finding sufficient guidance and training.
    Fusion center officials cited challenges accessing and managing 
multiple information systems. DHS and FBI have provided information 
system access, such as to HSIN and LEO, to a number of state and local 
fusion centers and have outlined plans to provide greater access to 
their classified networks. However, officials at 31 of the 58 centers 
we contacted still reported challenges obtaining access to federal 
information systems or networks. For example, officials in some centers 
cited challenges with DHS and FBI not providing fusion center personnel 
with direct access to their classified systems. In these centers, 
fusion center personnel must rely on federal personnel who are assigned 
to the center or other state personnel assigned to FBI task forces to 
access these systems, obtain the relevant information, and share it 
with them. Further, officials in 12 of 58 fusion centers reported 
challenges meeting system security requirements or establishing the 
technical capabilities necessary to access information systems, and DHS 
and FBI have taken some steps to address these challenges.
    In addition, officials at 30 of the fusion centers found the 
multiple systems or heavy volume of often redundant information a 
challenge to manage. Officials in 18 fusion centers said that they had 
difficulty with what they perceived to be the high volume of 
information their center receives, variously describing the flow of 
information as ``overwhelming,'' ``information overload,'' and 
``excessive.'' For example, officials said that center personnel must 
sort through the large amount of information, much of which is not 
relevant to the center, to find information that is useful or important 
to them. Additionally, officials in 18 fusion centers find the lack of 
integration among these multiple, competing, or duplicative information 
systems challenging, or said they wanted a single mechanism or system 
through which to receive or send information. Officials from the PM-
ISE's office said they are collaborating with other agencies, including 
DHS and DOJ, on an effort to review existing federal information 
systems and users' needs to determine opportunities to streamline 
system access. This review is in accordance with recommendations that 
fusion centers made during the National Fusion Center Conference in 
March 2007. Specifically, fusion centers recommended the federal 
government explore using a single sign-on or search capability, which 
would facilitate accessing multiple systems. However, it is too early 
to tell whether the efforts by the PM-ISE's office will address the 
challenges reported by fusion centers.
    Both DHS and FBI have provided security clearances for state and 
local personnel in order to access classified information and have set 
goals to reduce the length of time it takes to obtain a security 
clearance. For example, DHS set a goal of 90 days to complete a Secret 
clearance, and FBI set a goal of 45 to 60 days to complete a Secret 
clearance and 6 to 9 months to complete a Top Secret clearance. DHS and 
FBI have also provided centers with information about the security 
clearance process and time frames, stating that processing time for 
individual security clearances can vary, depending on complexity. 
However, obtaining and using security clearances represented a 
challenge for 44 of the 58 fusion centers we contacted. Further, while 
law and executive order provide that a security clearance granted by 
one government agency should generally be accepted by other agencies, 
officials in 19 of the centers encountered difficulties with federal 
agencies, particularly DHS and FBI, accepting each others' clearances. 
DHS and DOJ officials said that they were not aware of fusion centers 
encountering recent challenges with reciprocity of security clearances. 
However, they said that there were complications in the clearance 
process because, for example, multiple federal agencies carry out their 
own processes without central coordination.
    Officials in 43 of the 58 fusion centers we contacted reported 
facing challenges related to obtaining personnel, and officials in 54 
fusion centers reported challenges with obtaining and maintaining 
funding when establishing and operating their centers, challenges that 
some of these officials also said affected their centers' 
sustainability. For example, officials in 37 centers said they 
encountered challenges with federal, state, and local agencies not 
being able to detail personnel to their fusion center, particularly in 
the face of resource constraints. Fusion centers rely on such details 
as a means of staffing the centers and enhancing information sharing 
with other state and local agencies. Furthermore, officials in 20 of 
the centers we contacted said that they faced challenges finding, 
attracting, and retaining qualified personnel. For instance, an 
official from one fusion center said that finding personnel with the 
expertise to understand the concept behind the development of the 
center and to use the tools to build the center was challenging, while 
an official at another fusion center acknowledged that there was a very 
limited number of qualified candidates in the state from which to hire 
personnel. To support fusion centers, DHS and FBI have assigned 
personnel to centers. As of September 2007, DHS has assigned 
intelligence officers to 17 of the operational fusion centers we 
contacted. In addition, DHS was in the process of staffing 8 additional 
centers and has plans to place officers in a total of 35 fusion centers 
by the end of fiscal year 2008. The FBI has also assigned personnel to 
about three quarters of the fusion centers we contacted and continues 
to do so.
    In terms of funding, officials in 35 of the 58 centers encountered 
challenges with the complexity of the federal grant process, 
uncertainty as to whether they would receive federal funds, or 
declining federal funding, and officials from 28 of the 58 centers 
reported having difficulty obtaining state or local funding. They said 
that these issues created confusion for their centers over the steps 
needed to secure federal funds, made it difficult to plan for the 
future, and created concerns about the fusion centers' abilities to 
sustain their capabilities for the long term. Fusion center officials 
identified challenges with restrictions on the use of federal grant 
funds, unclear and changing grant guidance, and a lack of understanding 
of how federal funding decisions are made.\12\ DHS has made several 
changes to help address these challenges by taking steps to ease the 
grant process and by adjusting some of the restrictions on the timing 
and use of grant funds. For example, DHS expanded grant funding in 
fiscal year 2006 in the area of allowable costs for information sharing 
and collaborative efforts. Funds could be used by states to develop and 
enhance their fusion centers, particularly by hiring contract or 
government employees as intelligence analysts; purchasing information 
technology hardware, software, and communication equipment; hiring 
consultants to make recommendations on fusion center development; or 
leasing office space for use by a fusion center.
---------------------------------------------------------------------------
    \12\ A primary federal funding source for fusion centers is DHS's 
Homeland Security Grant Program, which awards funds to state, local, 
and tribal governments to enhance their ability to prepare for, 
prevent, and respond to terrorist attacks and other major disasters. 
The Homeland Security Grant Program consists of five interconnected 
programs, three of which can be used by states and local jurisdictions, 
at their discretion, for fusion center-related funding.
---------------------------------------------------------------------------
    While these funds are helpful, fusion center officials were 
concerned about the extent of federal support they could expect over 
the long term. The federal government, through the ISE, has stated that 
it expects to rely on a nationwide network of fusion centers as the 
cornerstone of information sharing with state and local governments, 
but ISE plans or guidance to date do not articulate the long-term role 
the federal government expects to play in sustaining these centers, 
especially in relation to the role of their state or local 
jurisdictions. It is critical for center management to know whether to 
expect continued federal resources, such as grant funds, facility 
support, personnel, and information systems over the long term. While 
the federal government generally cannot commit future resources, 
articulating the extent to which it plans to help support these centers 
in the long term is important for fusion center management in their 
planning efforts and sustaining the network.
    DHS, DOJ, and the PM-ISE have taken some steps to develop guidance 
and provide technical assistance to fusion centers to help address 
their challenges in the areas of guidance and training. For instance, 
in August 2006, DHS and DOJ issued jointly developed Fusion Center 
Guidelines that outline 18 recommended elements for establishing and 
operating fusion centers--for example, ensuring appropriate security 
measures are in place for facility, data, and personnel. Officials in 
48 of the 58 fusion centers we contacted said that they found the 
guidelines generally good or useful, although others said they were not 
specific enough to address their challenges. Officials at 19 fusion 
centers said they lacked guidance on specific policies and procedures 
on information sharing or lacked national standards and guidelines on 
training or qualifications for analysts. Furthermore, officials at 31 
of the fusion centers we contacted said they had challenges training 
their personnel, and officials at 11 centers we contacted, most of whom 
were operational centers that had been in existence for more than 2 
years, expressed a need for the federal government to establish 
standards for training fusion center analysts. DHS and DOJ have 
initiated a technical assistance service program for fusion centers 
and, along with the PM-ISE, sponsored regional and national conferences 
and are developing a baseline capabilities document to provide more 
specific guidelines for fusion centers. However, as of September 2007 
the baseline capabilities document is in draft.
    In closing, Madam Chair, state and local governments created fusion 
centers to fill their information needs, and the centers have attracted 
the attention of the federal government as it works to improve 
information sharing with state, local, and tribal entities in 
accordance with the Homeland Security and Intelligence Reform Acts. 
Indeed, the PM-ISE's implementation plan envisions that the federal 
government will work to promote fusion center initiatives to facilitate 
effective terrorism information sharing nationwide and designates 
fusion centers as the focus of sharing with state, local, and tribal 
governments. To date, DHS's and DOJ's efforts to assist fusion centers, 
such as providing access to information systems, security clearances, 
personnel, funding, and guidance, have begun to address a number of the 
challenges fusion center directors identified to us. However, it is 
also important for fusion center management to understand the federal 
government's role with respect to these centers since this affects 
state and local governments' support to centers. However, many fusion 
center officials were uncertain about the level of future resources and 
the sustainability of federal support. Although the federal government 
cannot make promises regarding future resources, articulating whether 
the federal government views its role in providing resources, such as 
grant funding, facilities, personnel, and information-sharing systems, 
to fusion centers as a short-term start-up effort or for the long-term 
sustainability of operations is important for fusion center management 
in their planning efforts and sustaining the network.
    In our draft report, which is now at the agencies for review and 
comment, we are recommending that the federal government determine and 
articulate its long-term fusion center role and whether it expects to 
provide resources to centers to help ensure their sustainability. 
Particular emphasis should be placed on how best to sustain those 
fusion center functions that support a national information-sharing 
capability as critical nodes of the ISE. We provided the agencies a 
statement of facts for our draft report and discussed the 
recommendation with them to obtain their comments. The Deputy PM-ISE 
generally agreed with the recommendation, and the agencies provided us 
technical details, which we incorporated. All agencies will be sending 
official comments on the draft report later.
    Madam Chair, this concludes my statement. I would be pleased to 
answer any questions that you or other members of the subcommittee may 
have at this time.

    Ms. Harman. I thank the witnesses for their testimony and 
remind each member that, in the order of arrival, you will each 
have 5 minutes to question the panel.
    Now, I will recognize myself for some questions.
    Mr. Rollins, you and Mr. Masse briefed some of us yesterday 
on your findings and you made an analogy to little league. I 
was struck by this, as a mother of two daughters who played 
lacrosse, and two sons who were in little league and who were 
quite clueless wandering around the field. And as a parent, I 
was just sitting in the stands praying they wouldn't be beaned 
by a ball.
    Could you explain this analogy on the record? I think it 
would be helpful as we ask you questions about fusion centers.
    Mr. Rollins. Of course. As the father of three young 
daughters, it hits home to me at the present.
    The analogy is a newly formed little league baseball team, 
where the players on the field, some are state and local, some 
come from the FBI, very few are from DHS, some from the 
military, specifically, the National Guard. So you have got a 
composition of different players with different skill sets and 
different objectives on the field.
    Some have equipment, some have databases, some have 
communications devices, some have analytic tools, most do not. 
But generally, nobody knows the rules of the game. What is the 
strategy? Is the strategy to score the most points? Is the 
strategy in the fusion center? Yes. The strategy is to stop 
terrorism.
    But how do we get there from here? There is a lack of 
understanding of what each partner's skills and abilities, of 
what equipment is needed and the rules to carry out the game.
    Ms. Harman. I appreciate that, and it is helpful to me as I 
think about this. I think that the work that all of you have 
done is helpful to us as we think about this.
    All of us have said this is a good concept, but clearly we 
need to do some work on both a strategy and on sustainable 
resources and all of you have given us some guidance.
    And you also, Ms. Larence, have pointed up the security 
clearance issue, which is a big problem, and I hope that our 
witnesses on the next panel will address this and will 
addresses the differences between them--they are the DHS 
witness and the FBI witness--in terms of clearances.
    Surely we don't want to be throwing up any more obstacles 
to state and locals in their effort to find out what plots are 
going on in their neighborhoods.
    But let me ask you this. As we move forward with a strategy 
and perhaps some strings attached to federal money so that we 
make clear the strategy is being followed, don't we risk 
setting up a new bureaucracy and insisting on cookie cutter 
fusion centers which may not accurately reflect the needs of 
very diverse communities?
    Mr. Masse. I will respond to that. I believe you are right 
there. There is a risk of doing exactly that and one of the 
elements that we heard in each of our conversations with fusion 
centers is that these are state and locally formed entities and 
you don't want to lose that flavor by coming in, for instance, 
and federalizing it or by providing a sustainable amount of 
funding, over-conditioning that on guidelines that are not 
responsive to their state and local demands.
    So there is a balance, I think, to be played here. There 
are national goals, counterterrorism goals, homeland security 
goals, but there are also state and local goals. And so the 
bringing together of those through the integration of those 
goals I think is incredibly important.
    And as a strategy is developed, that is one of the reasons 
why John and I recommended, as a strategy is being developed 
for what those roles and responsibilities are, that the state 
and local members, the fusion center directors, are brought 
into at the earliest stages of drafting such a national 
strategy, so they can have input and buy into that strategy as 
we move forward.
    Ms. Harman. Let me just comment that that has been our view 
about this ITACG that I mentioned in my opening remarks, that 
if we bring in the state and locals to design a strategy of 
information sharing, it is a similar topic, you have a better 
chance that it will be effective.
    Any other responses to my question?
    Ms. Larence. Yes, Madam Chair. I would just point out that 
DHS has acknowledged that they can't take a cookie cutter 
approach to the centers and, in fact, they do pretty intensive 
assessments at individual centers, looking to see what that 
particular center needs based on its geographic location, the 
risks posed to that community, and it is trying to make risk-
based funding decisions about where it is putting the dollars 
and personnel.
    So I think DHS is on that track.
    Ms. Harman. Well, I hope so. As I mentioned, numbers of us 
have been to numbers of these fusion centers. They are very 
different. I think that is a good thing. But some of them are 
extremely modest, in borrowed space, with detailees and 
basically no budgets, and no capability to fuse intelligence.
    They are more a center of collocation, as some of you have 
said, for people rather than a fusion center. So I am concerned 
that we don't have capability yet in many parts of the country 
that could be useful and I think there is a role to play here, 
not to build a bureaucracy, but to build capability.
    And now let me yield 5 minutes for questions to the ranking 
member, Sheriff Reichert, who brings very special skills to 
this issue.
    Mr. Reichert. Thank you, Madam Chair. We all here in this 
committee have a background of experience that brings different 
perspectives to this issue.
    But I agree with the chair. I get a little nervous when you 
talk about federal standards and federal involvement in local 
law enforcement. It is because I have had that experience 
before.
    But I think it is a good idea to have a national strategy 
and allow the fusion centers to develop, because I think the 
best ideas come from the bottom up. People who are doing the 
job know how to get it done and we need to let that process 
continue to be free and open and, at the same time, give 
direction. I think that is the real challenge that we are 
facing.
    First of all, which fusion centers were visited in the 
studies that were conducted?
    Ms. Larence. Yes. We personally visited centers in 
California, Arizona, Georgia, Virginia, Maryland, New York and 
New Jersey, but we interviewed all 50 states.
    Mr. Reichert. Good, okay. We have been to several, too, as 
the chair has said and we have noticed differences between 
Seattle and LA and Denver and other places.
    Did you find any one of those that was really doing it 
right, in your opinion, or was there one in particular that you 
might say, ``Gee, this is kind of the shining``----
    Ms. Harman. Be careful how you answer this.
    Mr. Reichert. I am sure it is Seattle.
    Ms. Larence. Well, at GAO, we are not allowed to have 
these, but we sort of had a gut reaction after looking at all 
50 states. We think there is probably about a handful that are 
really mature and well staffed and some of those included--I 
mean, New York City is kind of the gold standard.0
    Mr. Reichert. Yes, right.
    Ms. Larence. California, Arizona, as well, and Arizona is 
really helping to address border operations. So they are up and 
functioning, providing operational support.
    At the other extreme, I would just mention some centers 
that have, at this point, three personnel and are just trying 
to get their act together.
    Mr. Reichert. I mean, they would be resources, I would 
think, that you would draw from in order to help establish a 
better foundation for some of those that are still--I know 
Seattle really has a good program, but they have a ways to go 
when I compare it to Los Angeles and, of course, New York.
    But there is a resource I would suggest, and I am sure you 
have already considered that, that would be very useful in 
helping others across the nation with that local input and the 
federal input.
    Now, this all crimes approach is one that seems to be a 
consistent theme that we have heard. What is your opinion on 
how that approach--as we look at the evolution of fusion 
centers, first beginning at the local level and now, after 
September 11, taking on this broader view, broader mission of 
protecting our borders.
    So now all these have come together in an all crimes 
approach. What is your opinion of that approach and keeping our 
borders safe and, at the same time, addressing local crime?
    Mr. Masse. That is a very good question. I think one of the 
things is there are a number of reasons for that. Because a lot 
of these centers are largely staffed with state and local 
detailees, these centers, when they initially started off, were 
focusing on terrorism and there was not a lot of ``terrorism 
work'' happening at these centers.
    And so there was a reluctance on the part of, I think, some 
state and local law enforcement agencies that, as you know very 
well, are pressed for resources, to continue to send those 
valuable resources to a fusion center that was working solely 
on counterterrorism issues. And so that is one reason.
    I think a second reason, as has been mentioned earlier, is 
looking at criminal activity as a precursor to terrorism, 
whether or not there are money laundering activities that are 
going on that are supporting terrorism.
    As you know as a sheriff and an investigator, you look at a 
particular type of criminal activity, you are not certain if 
there is any nexus to terrorism or not until you investigate 
and start to look at that.
    So I think those are two of the reasons that we have seen 
sort of a movement from a solely counterterrorism based 
approach to an all crimes, all hazard based approach.
    Mr. Reichert. Anyone else?
    Mr. Rollins. I would just offer, and I think this connects 
to your earlier question, centers that are doing this right, 
there are natural competing interests presently at the state 
fusion centers and the federal government.
    Because this transformation over time has reverted back to 
a criminal or all hazards view of state and local issues rather 
than a national counterterrorism view, we have got competing 
interests of what are our priorities, local gangs or 
radicalized gangs that are coming out of prison?
    So there is this natural tension built into the issue.
    Mr. Reichert. I got the answers I expected. Thank you, 
Madam Chair.
    Ms. Harman. I thank the ranking member.
    Our most recent field hearing was in Denver, Colorado, and 
our host was Mr. Perlmutter. At that hearing, we explored both 
steps that are being taken to secure Denver for the national 
convention, the Democratic National Convention that will be 
there next year, which requires fusing law enforcement and 
other functions, both local, state and federal. But we visited 
the fusion center, which was a very impressive thing to see.
    I now yield 5 minutes to Mr. Perlmutter.
    Mr. Perlmutter. Thanks, Madam Chair.
    I agree with the two that have spoken before. What we have 
seen on our trips is really vast differences between, say, Los 
Angeles, which had a very sophisticated operation, just from a 
layman's look at the place, with a whole variety of services 
available to the metro area for Los Angeles, to Denver, where 
sort of in the nascent state of five or six people working as 
best they could with other local agencies and the feds.
    Just in terms of the structure of fusion centers today, who 
is in charge of fusion centers?
    Mr. Masse. I think that is a very valid question, and that 
would probably be point one of addressing a national strategy. 
As my colleague, John, just mentioned, there are different 
interests. There are the federal interests in counterterrorism, 
there are the state and local interests that also are in 
counterterrorism, but also in preventing organized crime and 
sophisticated criminal activities in their state.
    So the question becomes what are the actual authorities for 
fusion centers and one of the things that we found when we 
talked to the fusion centers we did is that some of them don't 
have any legal authorities. Some them operate under an 
executive order. Some of them that are affiliated with the 
state police agency operate under state police authorities.
    When you look at the federal regulations and the extent to 
which they guide fusion center activities, it is pretty much 28 
CFR which looks at the operation of criminal intelligence 
systems. And I think most of the fusion centers are very well 
trained on 28 CFR and what types of information they can 
actually collect, under what circumstances they can collect, 
how long they can handle that information, retain it, and 
analysis they can do it and who they can share it with.
    But the question of who is in charge is very much an open 
one.
    Mr. Rollins. I would just add, at the federal level and 
probably at the state and local levels, I think most would look 
at the Department of Homeland Security as being in charge or 
the executive agent of national fusion center efforts.
    However, with that said, as we heard earlier, DHS has only 
17 personnel assigned to these centers, to grow in the future, 
to be certain, has an undetermined amount of money devoted to 
these centers, contrasted to the FBI having 250 personnel in 
these centers, the FBI sponsoring many of the security 
clearances for personnel in the centers, the FBI paying for the 
leasing of facilities for many of these centers.
    So once again, I think there is the programmatic answer, 
but then the on-the-ground question of who is, at the federal 
level, responsible for supporting fusion centers.
    Mr. Perlmutter. And I think that is important. Sometimes 
maybe I am too simplistic, but there has got to be a place 
where the buck stops on these things. And I think in Los 
Angeles, we saw virtually every agency.
    I mean, there were a lot of federal agencies operating out 
of that office, the FBI, the intelligence community was there, 
DHS was there, health and human services was there. They had 
the whole shebang and then the sheriff's office and various 
police departments and medical services for the Los Angeles 
area.
    And in that instance, it seemed like the FBI was sort of, 
in my opinion, maybe I am wrong, Madam Chair, but it seemed 
like they were sort of--they and the sheriff seemed to be, for 
Los Angeles County, seemed to be the top guns in that 
particular office.
    But at some level, I think we have got to have somebody who 
says, ``We want these things to work.'' We understand they are 
each going to have their different personality, because they 
serve different purposes. Denver is going to have different 
issues than Los Angeles or New York City.
    In respect of this, and I would just ask all of the panel 
members, do you, after having reviewed this and studied this, 
do you think it is appropriate just for these centers to have 
the analytic approach and that is what they should be, just 
provide analysis for local agencies or whatever, or should 
there be an operational kind of all crimes, all hazards 
approach to this, as well?
    Mr. Masse. I think it really depends. In order to have sort 
of a federal dictate to fusion centers to say, ``You will all 
be analytic units or you will all be all crimes or all 
hazards,'' that may be an instance in which the existing fusion 
centers would view that as the federal government telling them 
what they need to do on a day-to-day basis.
    I think when you look at a lot of the centers, I think a 
lot of them were analytic based. That is, they were hiring 
intelligence analysts to look at the base of criminal 
intelligence and federal intelligence flowing in and then that 
went in to supporting state and local investigations and 
operations.
    Others that were more closely tied to the state police or 
state intelligence units did have an operational. So it depends 
on a lot of issues, including the resources that they have at 
the state level, whether or not you would want to be an 
operation and analytical and do you have the skill sets, the 
appropriate personnel skill sets to do both or either/or.
    Mr. Perlmutter. Thank you. My time has expired. So thank 
you.
    Ms. Harman. If anyone else wanted to answer that question 
briefly, please proceed.
    Mr. Rollins. I was just going to briefly add. From the 
federal perspective, I don't think it is useful to be 
prescriptive on how the state centers are organized, whether 
they are analytic, operational, all hazards, simply crime.
    I think from the federal perspective, we are more concerned 
about ensuring counterterrorism related information makes its 
way up to the federal chain and down and to each fusion center.
    So how a state wishes to internally organize, I think that 
is fine. We just need to ensure that we are the benefactors of 
counterterrorism related information.
    One shortcoming that is related to this is all 
counterterrorism related information, even in the most mature 
centers, isn't making its way into the fusion center. Most 
often, it is making its way to the joint terrorism task force, 
which at other times it is shared with the federal government, 
DHS, and maybe not shared with the fusion center.
    Ms. Larence. I just had three quick points. We think doing 
the fusion part is hard enough and that they should focus on 
that and get that right. I think adding operations onto that is 
an extremely huge challenge.
    Just a reminder that Congress authorized the Department of 
Homeland Security to be the lead agency for sharing with state 
and locals. So you have already clarified DHS has that role.
    I also wanted to point out that we not forget about Mr. 
McNamara and his office of information--the program manager for 
the information sharing environment. That office is responsible 
for defining the whole kit and caboodle for defining sharing 
across federal agencies, as well as state and local.
    They already have working groups and an infrastructure in 
place with state and local representatives to be making these 
decisions about how are we going to do this. And so I think we 
should also consider them a key player in trying to define a 
national strategy.
    Ms. Harman. Thank you very much.
    Thank you, Mr. Perlmutter.
    The chair now recognizes Mr. Carney of Pennsylvania for 5 
minutes.
    Mr. Carney. Thank you, Madam Chair. This was a nice segue 
into the discussion.
    I am very curious as to the relationship that the federal 
intelligence community has with the fusion centers. I mean, how 
well is that shared? Have consistent procedures by the federal 
intelligence community been developed? Have they been developed 
to share?
    Do we have predictable avenues of sharing up and down, from 
the states upward and from the federal government downward? We 
really haven't addressed that clearly yet.
    Ms. Larence. What we found in our study is it is primarily 
through the FBI and through DHS. A number of centers have 
collocated with the FBI and so they get national intelligence 
information through the federal personnel there, the FBI 
personnel, through their systems and DHS is bringing that 
through HSIN and some of their systems, as well.
    We did hear complaints from some of the centers that they 
don't get direct access to these systems and to this 
information. It has to go through and be vetted through federal 
agencies.
    Part of that is because they don't have the security 
structure yet that they need in their facilities.
    And it is our understanding, in talking with the National 
Counterterrorism Center, that they think they are statutorily 
almost forbidden to be able to share directly with state and 
locals and that they have to go through primarily DHS to do 
that.
    Mr. Carney. Well, that is for all our finished intelligence 
at the national level, certainly.
    Mr. Masse and Mr. Rollins, please feel free.
    Mr. Masse. One of the issues we saw in terms of the 
information flow was sort of a push versus pull. That is, when 
you were talking to some of the fusion centers, one of their 
complaints was that they weren't getting the right information, 
and part of that was that they didn't feel like they had enough 
requisite knowledge to ask the right questions or to have 
requests for information fulfilled in a timely fashion.
    And so they had to sort of pull the information versus 
having the federal community, the federal intelligence 
community, through the NCTC, operating through FBI and DHS, to 
push out that information.
    I think there are a number of credible reasons and 
compelling reasons for that. Part of is the lack of cultural 
understanding between the two communities and any initiatives 
that bring together those two communities, such as having state 
and locals at the ITACG, integrating perhaps state and local 
fusion center analysts into the NCTC itself, directorate of 
intelligence, they begin to learn one another, learn about one 
another's needs and then can, therefore, be more responsive to 
them.
    Mr. Rollins. I would just offer that there appears to be a 
lack of understanding of information sharing thresholds, if you 
will. What type of information needs to be shared, with whom, 
when? And then once that conversation takes place, what are the 
technology devices, communications devices that would 
facilitate the sharing?
    So do we, at the federal level, want everything shared from 
state and locals, whether there is a terrorism nexus or not, or 
is there a defined threshold to share? And the same with the 
federal. What are the requirements from the federal government 
going down to the state and local fusion centers that if you 
identify this type of activity, we would like information on 
it?
    Mr. Carney. Have we gained any knowledge, any insight from 
the exercise of like top-off on how this is supposed to work 
and flow?
    Mr. Rollins. The current top-off is addressing information 
sharing with state and local fusion, but as you know, that is 
still in process. Previous top-offs, just because of the nature 
of the maturation of the state and local fusions, did not look 
at that.
    Mr. Carney. Let's pretend for a moment that we have all the 
resources we need to defend the country. What, in the best of 
all worlds, would a fusion center look like?
    Let me put it this way. We don't have all, but we have 
enough to do at least the minimum requirement for a fusion 
center.
    What would that look like? What would you need in a fusion 
center to be effective?
    Mr. Masse?
    Mr. Masse. I think one of the most important things, fusion 
centers are people. I mean, what we are trying to do here, as 
Mr. Reichert had mentioned, is not only fusing people to 
develop the relationships, but you are also fusing information.
    So you have to have, in our belief, a core set of 
intelligence professionals that understand the intelligence 
cycle. Now, the intelligence cycle, it is INTEL 101. Even in 
the federal intelligence community, everyone talks about it as 
if it is implemented on a day-to-day basis, and it is not.
    It needs to become far more formal and people and 
individuals, including from state governors and fusion center 
leaders and everyone in between, homeland security advisors, 
need to understand intelligence, the discipline itself and the 
intelligence cycle and how to implement that cycle so they can 
serve both the state governors in their homeland security 
needs, as well as the federal intelligence community.
    If I had to put my finger on one thing, it would be 
personnel and trained personnel.
    Mr. Carney. Great.
    Mr. Rollins. I would just add, to Chairwoman Harman's 
comment earlier, there are too many systems. Right now there 
are too many systems to access varying degrees of level of 
security that require, depending on whether it is 
counterterrorism, counterintelligence, critical infrastructure.
    There needs to be a decision made on what type of systems, 
few, that state and locals, everybody in the fusion center can 
access to share information, is one.
    To look to the future of where we would like to end up with 
this entire national, not federal, fusion center constellation. 
We just saw this summer there was a National Intelligence 
Estimate on threats to the homeland. Well, once again, that is 
the national, that is the federal government's interpretation.
    In the future, it would be nice to see a truly national, 
including state and local fusion center input into threats to 
the homeland.
    Mr. Carney. I guess I was under the impression that that 
had already occurred.
    Mr. Rollins. No, sir.
    Mr. Carney. That is sort of troubling.
    Madam Chairman, I thank you for the time.
    Ms. Harman. Thank you, Mr. Carney.
    Yesterday at our briefing, one of the other things some of 
the witnesses said was that when they asked fusion center 
personnel about what threats do you face, some of those answers 
were less than overwhelming.
    So there is a lot of work to do.
    The chair now yields 5 minutes to the gentleman from 
Washington, Mr. Dicks.
    Mr. Dicks. I think this has been very good work on your 
part. I want to compliment you.
    I think we may have had impressions of what was happening 
at these fusion centers, even after visiting them, but I think 
this comprehensive review of the situation helps clarify, in 
our minds, at least, what we are getting out of this.
    Let me just ask this question. What do the locals--I mean, 
as we said, the local governments are creating these centers in 
most cases, I guess in all cases.
    What is their expectation? What do they think they are 
going to be getting out of this that will be beneficial to 
them? And then from the federal point of view, I would hope 
that, one, that we would be getting the information to these 
people, as we have been discussing, but also getting 
information from them on the counterterrorism issue.
    Would you like to take that one on?
    Ms. Larence. Well, what we heard is that some of the more 
sophisticated localities recognized early on that they needed--
they couldn't wait for the federal government, that these acts 
are potentially going to happen in their jurisdiction and their 
communities and they needed to have their act together.
    They needed to have good information. They needed to have 
trained analysts and they needed technology to help them do 
that. And to be able to figure out their own unique threats to 
their communities and how they were going to respond to those.
    In some cases, now, though, I think it is almost a follow 
the leader. Some communities feel now that because other states 
and localities have them, that everybody needs them. So I think 
in some cases, the money was there and so they are looking to 
start these centers and they are going to need help to get up 
to speed as well as some of those sophisticated centers are.
    And for them, it gives them access to the national 
intelligence community and the federal community. It gives them 
access to people, to systems, to information and to help about 
what to do and how to use that information effectively, and 
money.
    Mr. Dicks. Do we have any good examples of a fusion center 
picking up on some activity that might have led to a terrorist 
attack?
    Ms. Larence. I have an anecdote that we learned that we 
were in Los Angeles. It was shortly after the problems with the 
chlorine gas tanks occurring overseas, and they got some pretty 
general bulletins down from the federal government.
    They were surprised that it took 3 or 4 days to get some 
information down from DHS on that issue. But they had enough 
capability to be able to already identify, within their 
communities, how often do they get those kinds of traffic, 
could they reroute them, et cetera.
    So LA stepped out and took the initiative to figure out, 
within their communities, what threat was posed and how they 
could manage that.
    Mr. Dicks. You also said that, and we discussed this 
yesterday, that New York, because they have the resources, the 
people, the commitment, is kind of the gold standard here of 
what one of these offices might look at.
    Tell us what New York does that impressed you.
    Mr. Masse. New York has a series of activities that I think 
are the reason that it is called the gold standard in 
intelligence, and I think you mentioned three of the top 
reasons why I think they are the gold standard.
    I think it starts with a commitment at the senior most 
level in terms of Commissioner Kelly and his commitment to 
counterterrorism.
    The personnel that they have brought in are individuals who 
have served in the federal intelligence community and have 
extensive background in intelligence. The resources that they 
have been provided.
    But it is also very much, and it exudes throughout their 
operation, and that is the idea of never again, this prevention 
mission that I think dominates all else, and to ask permission 
is to seek denial, is their attitude, and I think they have a 
series of--they understand their environment, they understand 
it well.
    They have a series of core collectors who are out 
aggressively and proactively collecting intelligence. They have 
a very large team of analysts who can analyze that information. 
They have deployed individuals overseas to collect information, 
because they don't want any filters between them, between 
overseas activities and having that report come directly----
    Mr. Dicks. Is that legal?
    Mr. Rollins. That is an open question. I know there have 
been some questions raised about that.
    Ms. Larence. I did pose that question to them when I was up 
there, and they seemed to determine that their state laws give 
them a little bit more flexibility to do some of the things 
that they are doing.
    Mr. Dicks. But does the federal law give them that ability? 
I mean, you couldn't have rogue intelligence agencies out there 
gathering information. I mean, that could be in other 
countries. That is somewhat concerning to me.
    Mr. Masse. I think what you would hear, and I won't speak 
for them, but I think what would you hear from them is that 
these aren't, ``intelligence officers'' in the traditional 
sense of CIA or DIA. These are law enforcement to law 
enforcement on the idea of FBI legal attache type of 
operations.
    Mr. Dicks. Just one thing on this. Is anybody else doing 
what New York is doing? Is anybody doing any part of what New 
York is doing out there are these fusion centers or is New York 
just a unique situation because of the resources and commitment 
they have?
    Mr. Rollins. The latter. Nobody comes close. It is really, 
I think for reasonable reasons, because of what has happened in 
New York City over the past two decades, it is unfair to view 
the other fusion centers with regard to NYPD intelligence 
activities.
    Mr. Dicks. Well, it just strikes me that maybe we ought to 
be doing the some thing in the District of Columbia and in Los 
Angeles and in some of these other major urban areas in the 
country.
    Thank you.
    Ms. Harman. Thank you, Mr. Dicks.
    While you were asking your asking your questions, I was 
just talking to staff about the need for a hearing on best 
practices and to have the NYPD in here. Not only the 
commissioner, but also the deputy commissioners for 
intelligence and for counterterrorism, people that I personally 
know well and whom we saw recently, in fact, this weekend in 
New York, when eight of us were up there touring some sites 
very concerned about the threat of radiological weapons in New 
York and in other cities.
    So I think we can ask a lot of these questions then and we 
can hopefully see whether, if this model is as attractive as 
many think, it can be replicated in other cities under major 
threat, one of which is the one we are in right now.
    I want to thank this panel for excellent testimony, very 
useful reports. We will pay attention to your ideas and look 
forward to the second panel, which is representatives from DHS 
and FBI, responding to some of your ideas.
    I think that the order of witnesses this day is very 
constructive and in the future, too, when we will put panels 
first of people who are making constructive suggestions to 
federal officials and then have them respond to the 
constructive suggestions.
    So please stick around as we have our second panel.
    This panel is excused.
    We are looking for Mr. Mines. Here you are.
    It is my pleasure to welcome our second panel. Our first 
witness, Jack Tomarchio, was appointed by President Bush as 
principal deputy assistant secretary in the Office of 
Intelligence and Analysis at DHS in late December 2005.
    Mr. Tomarchio's core responsibilities include working with 
state and local governments, the private sector and other 
members of the federal intelligence community to ensure that 
critical intelligence is more effectively and efficiently 
shared. Prior to joining the department, he was a partner in a 
national law firm.
    Our second witness, Michael Mines, serves as the deputy 
assistant director in the FBI directorate of intelligence. Mr. 
Mines began his FBI career in 1980, when he was assigned as a 
media specialist in the office of public affairs at FBI. He 
became an FBI special agent in 1983.
    In 2005, he was appointed special agent in charge of the 
criminal division of the Washington field office, where he was 
responsible for all criminal and cyber crime issues in this 
city and in Northern Virginia. In 2006, he was named deputy 
assistant director at FBI headquarters.
    Our third witness, Norman Beasley, will provide our state 
and local perspective, very important. He currently serves as 
the counterterrorism coordinator for the Maricopa County, 
Arizona Sheriff's Office, where he provides support to the 
office in the areas of counterterrorism, special events, 
demonstration management, intelligence, facial recognition and 
homeland security related issues.
    I think you can go head-to-head with Sheriff Reichert here.
    He was responsible for the development, implementation and 
operation of the Arizona counterterrorism information center, a 
multi-agency operation involving over 240 state, local and 
federal officers from 41 agencies. The center has become a 
national model for intelligence fusion centers, and we just 
heard that from the last folks.
    Without objection, the witnesses' full statements will be 
inserted in the record. I would now ask each of you to 
summarize your statement in 5 minutes.
    We will start with Mr. Tomarchio.

    STATEMENT OF JACK TOMARCHIO, PRINCIPAL DEPUTY ASSISTANT 
 SECRETARY, INTELLIGENCE AND ANALYSIS, DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Tomarchio. I have a brief opening statement.
    Madam Chairwoman, I am pleased to be here today to present 
to you and the members of this committee the status of the 
Department of Homeland Security's state and local fusion center 
program, which is now 15 months in existence.
    Developed to address our specific statutory requirements 
created under the Homeland Security Act of 2002, this program 
was designed to share national intelligence and threat 
information with our state, local, tribal and private sector 
partners, all of whom are necessary allies in our nation's 
efforts to protect the homeland.
    The office of intelligence and analysis was tasked by 
Secretary Chertoff as the executive agent within the department 
for the management of the fusion center program on June 6, 
2006. The department's chief intelligence officer, Assistant 
Secretary Charles E. Allen, specifically placed the management 
of the program under me as the principal deputy assistant 
secretary for intelligence and analysis.
    Over the past 15 months, my staff and I have made this our 
core effort, and I am pleased to inform you that we continue to 
meet our goals, as we expand the program to more states and 
municipalities throughout the nation.
    I am also pleased to testify today with Mr. Mike Mines, the 
deputy assistant director for intelligence of the FBI, which 
has been and continues to be a constant and valuable partner 
with us in the fusion center program.
    Few programs have received the level of attention in the 
first year as this program has. You will hear today from the 
Congressional Research Service, you already heard from them, 
and the General Accountability Office, the FBI and from our 
state partners about our efforts.
    Unfortunately, there will be some weaknesses revealed. We 
recognize that. And we continue to work to improve the program 
together with our state, local, tribal and other federal 
partners.
    Each level of scrutiny informs us. We have read the CRS 
report on fusion centers and we agree with the recommendations, 
in general, for improving the operational aspects of these 
centers. We do, however, take exception with the CRS report 
finding that the fusion centers are not operating successfully 
as counterterrorism nodes.
    We await the final report from GAO, with whom we have 
worked closely for over a year now to provide an unprecedented 
level of transparency and cooperation in their attempts to 
accurately inform you of our progress. We believe in what we do 
and we hope this will be apparent in their report.
    We were advised just last week that our program will 
undergo a Congressionally sponsored inspector general review by 
the department's IG office, whose results should be delivered 
to the House Homeland Security Committee in the spring of 2008.
    And, finally, we have been scrutinized by the media, who 
have released dozens of articles over the past years relating 
to our activity. Mr. Allen and I welcome scrutiny, for, as I 
said earlier, each level of scrutiny informs us of our 
progress, highlights our strong points and underlines those 
areas where more work needs to be done.
    It has always been our intent that this program stand tall 
in the light of scrutiny, and we remain proud of the work we 
are doing for our nation and for our citizens.
    Fusion centers are at the epicenter of addressing many of 
the vulnerabilities revealed in the aftermath of the 9/11 
tragedy, but they are also places where the most sensitive 
information is exchanged. Some of our most insightful national 
security information is exchanged in these centers and, 
accordingly, we must ensure that with the exchange of this 
information, the privacy, rights and civil liberties of our 
citizens are always protected.
    This challenge epitomizes the struggle that we have as a 
nation to protect our citizens while, at the same time, 
ensuring the protection of their civil rights, civil liberties 
and privacy.
    The 9/11 Commission Act recently passed by this Congress 
goes a long way in assisting us in the proper management and 
relationship with fusion centers from the federal level. The 
informed provisions of the act will help us make our program 
better and the nation safer, while guaranteeing the protection 
of our citizens' personal information and privacy.
    We applaud the Congress on the development and 
implementation of this act.
    Last year, my boss, Mr. Allen, briefed you that we intended 
to have 20 DHS intelligence officers deployed to fusion centers 
around the nation by the end of 2007. I am pleased to inform 
you that we will meet this goal. As of today, we have deployed 
19 officers from the office of intelligence and analysis, who 
are on station, working daily with our state and local partners 
in fusion centers.
    Additionally, we have 36 other officers from across the DHS 
enterprise that are also working in fusion centers at various 
levels. Just last week, we selected an additional five officers 
from INA who we anticipate will be on station by the end of 
this calendar year and we are working on hiring two additional 
officers for deployment to New York City as we speak.
    Selecting these officers is not easy. In every case, we 
work with the fusion center to determine what the needs are 
specific to that center and we try to select those officers who 
will best meet those needs. It is not a precise science, but we 
feel it is the most effective way to ensure that the value 
proposition for our relationship with the fusion center is 
recognized.
    We hope to have 35 officers deployed by the end of next 
year and the goal of the program is to provide every primary 
fusion center within a state a representative over the 
following 3 years.
    The response we have received thus far from the fusion 
centers is unanimously favorable and, in many cases, the fusion 
centers have made public acknowledgements that this is some of 
the best support that they have received from the federal 
level.
    I receive nearly weekly commendations from the states for 
the work of our deployed officers. They alone, however, do not 
provide the support that the states require. Behind each of 
these officers, when we deploy them, there are many skilled 
workers who are preparing products for dissemination, analyzing 
the risk that that state and their local partners face, and 
working as part of the intelligence cycle to ensure that our 
customers receive the most timely, relevant and actionable 
intelligence we have to assist them in mitigating these threats 
as they become known.
    Detailed in my formal testimony are statistics too numerous 
to mention, in this short period of time, that demonstrate a 
renewed level of commitment to the states. We have worked 
mightily to ensure that we are meeting their needs and we do 
not work alone.
    Our federal partners in the DOJ, the FBI and the 
intelligence community are working with us.
    Ms. Harman. Could you please summarize at this point, Mr. 
Tomarchio?
    Mr. Tomarchio. Absolutely.
    Madam Chairwoman, as I said before, we are pleased with the 
progress we have made. We haven't licked all the problems yet. 
There are many challenges that are ahead.
    We believe, however, that the DHS, together with our 
federal partners, together with our state and local partners, 
can meet these challenges and make the progress that this 
committee will scrutinize us on and we think make progress that 
will not only protect our homeland, but also ensure the 
protection of the civil rights and civil liberties of our 
citizens.
    Thank you.
    [The statement of Mr. Tomarchio follows:]

              Prepared Statement of Jack Thomas Tomarchio

    Good morning, Madame Chairwoman and members of the subcommittee. I 
am pleased to be here today to share with you the initiatives we are 
taking through our State and Local Fusion Center Program to ensure 
information sharing with our State and local partners, and the many 
efforts within our Office that support the vital work these centers do 
in protecting our Nation.
    As you are aware, Madame Chairwoman, the Office of Intelligence & 
Analysis (I&A) initiated just over a year ago a plan which was approved 
by the Secretary of Homeland Security to support in a meaningful 
fashion the efforts within State and local jurisdictions to share 
threat information and intelligence assessments, not only between the 
Federal Government and the State and local governments, but also 
between the States themselves. Many States and major urban areas had 
established centers whose purpose was to foster an environment where 
this information could be assembled and analyzed to ensure proper 
resources were in place to mitigate the threats as they were revealed. 
Although some fusion centers were developed without Federal support, 
many used Federal grant money to create centers. We recognized early on 
the benefit of local governments taking the initiative to create more 
robust information and intelligence sharing efforts and tasked our 
State and Local Program Office to prepare a plan that would optimize 
the sharing of Federal information with these centers.
    Secretary Chertoff understood the unique benefits that could be 
realized by creating a strategy that would work with these centers and 
using them as the primary facilitation point for the sharing of 
information and intelligence with local governments and, as such, 
appointed I&A as the Executive Agent for the Department in supporting 
these centers. It is important to realize that these centers are not 
Federally owned, managed or developed, they are locally controlled and 
we at the Federal level must be invited to work within their sphere of 
control. This of course is a different, more grass roots method of 
providing federal information, but it is effective. Due to this 
important distinction, it is appropriate not only to describe the 
structural support we provide on a daily basis, but also the many 
creative approaches we have taken within DHS to share intelligence with 
our State and local partners and work with them collaboratively in 
these centers to conduct the most important mission we all mutually 
face as governments--that of protecting the homeland.
    As the executive agent for the Department concerning fusion 
centers, we have become acutely aware of the many challenges that exist 
when one sets out to partner with local governments in the exchange of 
information and intelligence. Central to this effort is not only the 
need to protect the information being exchanged, which in some cases 
could reveal very sensitive national security information, but also 
information that is central to ongoing, active criminal investigations 
that, if compromised, could possibly hinder prosecution or jeopardize 
our most sensitive law enforcement confidential sources or intelligence 
capabilities. I am pleased to be sitting here today with the Deputy 
Assistant Director for Intelligence from the FBI, Mr. Mike Mines, who I 
know shares deeply our concern that sensitive information remain 
protected but, like me, also believes in the need to get information to 
officials at the State and local level who act on this information in 
variety of ways that keeps us safe. At the core of our effort remains 
not only a desire to keep this information safe, but also ensure the 
protection of the civil liberties and privacy rights our citizens enjoy 
and which make our nation the model for how government can protect its 
citizens without damaging the Constitutional protections afforded all 
of us.
    In the invitation to speak before you today our office was asked to 
describe the present status of the State and Local Fusion Center 
Program, challenges that DHS may be facing in supporting this effort, 
and finally how the Congress might help to support our efforts. Let me 
begin my describing our current status.

Current Program Status
    The deployment of DHS analysts to the fusion centers is one way we 
build a trusted relationship with our state and local partners. As of 
today, we have 18 intelligence officers deployed to fusion centers 
nationwide, and we plan on nearly doubling that number by the end of 
next year. To do this, we continue to perform needs assessments at all 
fusion centers to deploy the right people, expand DHS component 
participation in fusion centers, install information technology 
systems, and provide the centers with access to DHS and National 
Intelligence Community intelligence.
    The Fusion Centers have direct access 24 hours a day, seven days a 
week to our Intelligence Watch and Warning Division, which is part of 
the National Operations Center. The Watch serves as an entry point into 
DHS for the State and Local Fusion Centers and our deployed officers. 
The watch routinely answers requests for information from the deployed 
officers and provides them access to current classified threat 
information through their daily intelligence briefings, which are sent 
via Homeland Secure Data Network to each deployed I&A officer.
    State and Local Fusion Centers also interact and mutually share 
information (as appropriate) within the larger Intelligence Community.
    In addition to deploying analysts, DHS Headquarters' I&A analysts 
and SLPO officials spend a great deal of time building relationships 
with their fusion center partners. I&A analysts are in contact daily 
with fusion centers, via e-mail and phone, fielding queries on the 
latest threat information, al-Qa'ida messaging, or even simply 
providing analytic POCs. Analysts frequently visit their counterparts 
at the state and local level to make contacts and discuss analytic 
threat issues--all to build the trust that will take the partnership to 
the next level.
    Now that nearly 50 fusion centers are up and running across the 
country, we want to further enhance their effectiveness. Our assistance 
focuses on the management of fusion centers as intelligence nodes. This 
assistance covers management and direction, planning capabilities 
centered on the elements of the intelligence cycle, and best practices 
and lessons learned.
    Our goal is to sustain and capitalize on our investment. We ensure 
that DHS operations in fusion centers support information exchange and 
the intelligence cycle. Our people and tools, combined with the efforts 
of other partners in the fusion centers, help provide continuous 
situational awareness for all members of the National Fusion Center 
Network, at all levels of government and with the private sector.
    The National Fusion Center Network was called for by the President 
as part of the Information Sharing Guideline Two report to be the 
method that information will flow vertically among the State and 
locals. This network of trusted partners creates a technique for 
passing information in emergent or tactical situations with little to 
no potential for disruption or time delays since each person acts as a 
node receiving point-to-point communication.
    Getting more eyes on the information to analyze it within the local 
and national context is critical for guarding the security of the 
homeland. It is in this area that we have made the biggest strides 
since, our Chief Intelligence Officer, Mr. Charlie Allen, last briefed 
you on the program. Our efforts to support the centers are underpinned 
by some very important initiatives within our office that have been 
recently praised by our State and local colleagues.
    From the outset, DHS recognized that there must be a robust 
analytical effort to support the provision of threat warning and 
intelligence assessments to fusion centers. To date, the Department has 
taken a very active role in supporting the information and intelligence 
exchanges with fusion centers. For example, in our Critical 
Infrastructure Threat Assessment (CITA) Division within the Office of 
Intelligence and Analysis, classified threat papers were prepared for 
each State and the territories and each State participated in working 
groups to review these with the states. This combined approach has 
helped DHS better understand the unique threat environment each State 
faces. It will also inform efforts within DHS, to include decisions 
involving distribution of grant money and other forms of support. While 
this catered approach is very labor intensive, we believe it must be 
done to ensure the States believe their equities are being considered 
when we make decisions in Washington that affect their threat 
mitigation posture.
    The Office of Intelligence and Analysis analytical divisions hosted 
two conferences this year for State and local analysts working in 
fusion centers, one focused on WMD Threats to the Homeland, and the 
other on Extremism and Radicalization. In both cases, more than 100 
analysts from across the country participated in workshops designed to 
enhance their understanding of these very critical areas of concern. 
The WMD conference, held at Camp Parks, CA, was conducted in 
cooperation with Sandia National Laboratory. This conference provided 
greater insight and understanding of the many tools the Federal 
government leverages to support the mitigation of this threat. For many 
State analysts, this was their first exposure to this form of training 
and the feedback was universally positive from our customers. We are 
planning a future analytic conference next year on border and maritime 
security threat issues. Our hope is to encourage a greater dialogue and 
understanding of common threats. Throughout the year, analysts come 
together in smaller groups to discuss specific topics of interest, such 
as prison radicalization, domestic extremism, and infrastructure 
concerns in specific areas of the country.
    We realize that understanding the threat can be complex and often 
clouded by unrelated events or issues not associated with a particular 
threat stream. Therefore, when events occur, the Federal government 
must provide our State and Local partners prompt, responsive 
notifications and the proper context so that they can discern between 
an actual terrorist threat and a criminal incident that lacks any nexus 
to terrorism. As a result, our Intelligence Watch and Warning Division 
provides Chief Intelligence Officer (CINT) Notices, or CINT Notes, a 
new product line that communicates information and analysis on emergent 
issues, domestic or international, to Homeland Security partners, to 
include Federal, State, Local, Tribal, and Private Sector. These CINT 
Notes are fully coordinated with the FBI and are disseminated as a 
joint-sealed product by DHS and FBI, to ensure our State and Local 
customers hear one voice from the Federal government. To date, we have 
disseminated 41 CINT Notes to keep more than 1,000 partners informed of 
breaking events worldwide and to diffuse any speculation about threats 
to the Homeland. Examples of coverage include incidents occurring in 
the Homeland such as the Cory Lidle plane crash in New York City, the 
Ft. Dix plotters, terrorist group media announcements such as the 
recent al-Qa'ida media blitz and international terrorist attacks like 
the London and Glasgow bombings, and the release of the U.S. National 
Intelligence Estimate. When warranted, we conduct these notifications 
via teleconferences, allowing questions and answers for our customers. 
We are receiving positive feedback from State and local customers as 
well as the Intelligence Community on these products. We have focused 
on ensuring that we reach this new customer set at the State and local 
level, not just in the ways described thus far, but also by asking our 
customers what they value in the information exchange and working with 
the fusion centers to determine what information they require and in 
what form they most easily digest that information.
    Our Collections and Requirements Division (CR) has worked closely 
with State and local stakeholders to improve the Department's ability 
to respond quickly to their inquiries for information. In 2007, the CR 
Division has thus far processed over 117 formal requests for 
information from State and Local Fusion Centers. CR Division officers 
have also briefed Emergency Managers and State National Guard Staff in 
10 hurricane-prone states and U.S. territories on how the Interagency 
Remote Sensing Coordination Cell (IRSCC) might satisfy their geospatial 
and remote-sensing needs during Incidents of National Significance.
    Additionally, in accordance with the legal authorities that protect 
the handling of US Person information, we are beginning to see the 
fruits of the trusted relationship we have developed, as our state and 
local partners begin sharing their unique information with us. This 
type of ground-truth information has never before been available to the 
Intelligence Community. One of the ways we can do this securely is via 
the Homeland Security Data Network (HSDN) webpage created for each 
fusion center. The Production Division has been working with the I&A's 
State and Local Program Office to develop these pages that will allow 
each fusion center to post their information at the SECRET level, which 
we hope will inform the rest of our Intelligence Community partners of 
the information available to them from the domestic realm. Just last 
week New York City delivered 22 intelligence products for posting. Now 
anyone across the country with SIPRNET or HSDN access can search a 
topic and return hits that include New York City's and other fusion 
centers' products. These can and will inform the thinking of all 
Community analysts.
    Finally, each of our divisions produces monthly digests, which are 
concise, open source, products tailored to the State and local audience 
that provide important insights on specific topic areas. For example, 
we produce monthly products on Domestic Extremism, Radicalization, 
Critical Infrastructure and Borders. Feedback on these monthly products 
by our fusion center partners has been positive.
    Let me detail some substantive information sharing numbers that I 
believe will inform the committee on the breadth of the work 
accomplished in recent months. The first Homeland Security WMD 
Intelligence Reporting Guide will be produced for state and locals 
soon. We have released over 120 finished intelligence products and 
1,300 unclassified Homeland Intelligence Reports, HIRs, to our state 
and local partners. Based on state and local customer feedback, we have 
changed the way we present our information to improve the quality and 
relevance of our products. We have recruited and trained Reports 
Officers at SLFCs by providing mobile training teams to seven states. 
The connectivity to fusion centers has enabled us to write 22 Homeland 
Intelligence Reports using state-or local-origin information--
information that would not have made it to the Intelligence Community, 
or other parts of the Federal Government, any other way.
    I&A is developing joint products with State and local analysts on 
bioterrorism and health security issues, chemical, nuclear and 
radiological topics. We have collaboratively produced baseline 
assessments of radicalization trends in both California and Ohio. In 
each case, analysts in our Office worked with State and local analysts 
as well as our deployed officers to look at issues of common concern 
and work together to determine a common view which can then be 
presented to the Intelligence Community and shared with our Federal and 
State partners.
    This summer I&A began a State-and-Local Fellows program, which we 
hope is the first step in enhancing individual States' capabilities and 
understandings of intelligence workings. Captain Charles Rapp, of the 
Baltimore Police Department, was selected as the first fellow and he 
has been instrumental in assisting our Headquarters personnel in better 
understanding the current State and Local environment. Recently the 9/
11 Commission Act provided guidance on this effort and we are now in 
discussions on sustaining this program with short-term analytic 
exchange visits throughout the year. Sgt. Joel Howard, of the Chicago 
Police Department, will join us beginning in November. We are also 
currently hosting an analyst from the New Jersey Office of Homeland 
Security and Preparedness, Mr. Tavis Rendell, and we expect to bring an 
analyst from Georgia to Headquarters to work on a specific intelligence 
assessment in the coming months.
    Many State and local fusion centers assist in the very important 
role of protecting our borders. The 9/11 Commission Act emphasizes the 
importance of enhancing our border intelligence and our Borders 
Analytic Branch is developing ways of consulting with state, local, and 
tribal partners to identify topics and analytic methods that will be 
most useful to Federal, State, and local operators in the field. Along 
with the deployment of officers to fusion centers, we have sent a 
specially assigned officer to the El Paso Intelligence Center (EPIC) to 
work with the Southwest Border States and our federal partners to 
better understand the threats there and to assist our local and federal 
partners in developing a common approach to the information exchanges 
required to secure our border.
    Our Information Sharing and Knowledge Management (ISKM) group 
continues to provide forward leaning and formative assistance to the 
State and Local Program Office in a number of ways to achieve the goal 
of enhanced information exchange and the development of collaborative 
projects. For example, DHS hosts a weekly threat teleconference with 
the 26 fusion centers that have joined the Community of Interest 
created by ISKM to provide the DHS perspective on threats and to allow 
states the opportunity to discuss threats from their perspective. This 
weekly conference is gaining wide praise for the openness of the 
content and its ability to bring many areas of concern to the attention 
of a national audience whose unique perspectives inform our many 
analytical efforts at headquarters. Additionally, ISKM has taken the 
lead in providing technical solutions to the fusions centers to include 
Secret Video Teleconferencing (SVTC) capabilities, Homeland Security 
Data Network, our SECRET-level data network, which will be in 20 fusion 
centers by the end of this year and double that number by the end of 
next year.
    Further, Madam Chairwoman, I am particularly pleased to report to 
you that the Interagency Threat Assessment & Coordination Group, or 
ITACG--mandated by Guideline Two of the President's 2005 Memorandum to 
Heads of Departments and Agencies and recently enacted into law by the 
9/11 Act, or PL 110-53--will soon begin operation at the National 
Counterterrorism Center (NCTC).
    As you know, the ITACG will advise, counsel, and use its subject 
matter experts, including federal and state and local officials, to 
educate NCTC and other federal agencies, whose products ultimately are 
destined for state and local consumers, on what is most important and 
actionable from their perspective. Per the direction of both the 
President and the Congress, the ITACG's advice, counsel, and subject 
matter expertise will facilitate the production and dissemination to 
state and local stakeholders of ``federally-coordinated terrorism 
information products'' in the areas of time-sensitive threats, 
situational awareness reporting, and strategic assessments. Moreover, 
for the first time ever, state and local officials in fusion centers 
will have access to key systems and information available at NCTC.
    The ITACG initiative will facilitate the dissemination of key 
information and analyses to our fusion center efforts and provide a 
unique access into the Intelligence Community's terrorism-related 
holdings. This initiative was requested by many fusion center leaders 
and the Major City Chiefs Association and we are pleased to report 
progress in its implementation.
    Within I&A routine communications and information exchanges occur 
24 hours a day, seven days a week. We have undertaken a review of our 
existing channels and seek to continuously improve them. Presently a 
Fusion Cell is continuously manned at the National Operations Center in 
DHS to keep the Secretary and senior leadership apprised of all 
activities relating to DHS' interactions with State and local 
governments. Fusion centers reach out to this cell for routine and 
emergent information and intelligence exchanges. DHS has recently 
decided to expand this desk to work in the TS/SCI realm along with the 
present SECRET level area within the NOC.
    All of the efforts currently underway to support the fusion centers 
and State and local information needs more broadly are foundationally 
supported by effective training. When Mr. Allen last spoke with you on 
fusion centers, Madame Chairwoman, earlier this year you closed the 
discussion with a very poignant remark concerning the need for 
training. I am pleased to inform you that our Mission Integration 
Division's Training Branch has worked diligently to address your 
concerns. Every one of our DHS officers receives training from the 
Offices of General Counsel and Civil Rights/Civil Liberties. The 
Department of Justice along with DHS' Technical Assistance Office in 
FEMA has facilitated two regional workshops to help fusion centers 
begin to develop and implement policy relating to privacy and civil 
liberties.
    Individual training supports the intelligence cadre of the fusion 
centers. This mobile training is synchronized with standard 
intelligence and privacy and civil rights/civil liberties training 
offered to DHS intelligence officers. The set of training courses 
include a Privacy, Civil Liberties and Civil Rights Overview; Reports 
Officer Training; Intelligence Writing and Briefing; Critical Thinking 
and Analytic Methods; and Intelligence Oversight and / or the Criminal 
Intelligence Systems Operating Policies under Title 28 CFR Part 23. We 
have also hosted discussions with privacy rights advocates to capture 
their insights and understand their concerns.
    I must also mention the many staff officers in I&A who work 
tirelessly to support our State and Local Program Office in a variety 
of ways, whether through support to budgeting and planning or even the 
very real processes of preparing testimony for this committee on the 
program. It should not go unnoticed that these back office functions 
are every bit as important as the direct day-to-day analytical and 
technical support our office provides to our State and local customers. 
Our security division in particular provides direct security support to 
the fusion centers on a daily basis. They are in fact the security 
managers for each and every state and local partner, providing security 
clearances, facility clearances--allowing the deployment of our secure 
IT platforms--and general subject matter expertise.
    With the assistance of the Program Manager, Information Sharing 
Environment (PM-ISE) a combined Federal and State fusion center policy 
group has been created to take a continuous look at the issues 
affecting and relating to fusion centers. The National Fusion Center 
Coordination Group, co-chaired by our State and Local Program Director, 
Mr. Robert Riegle and Special Agent Mines, has taken a proactive 
approach to the formulation of standards for the centers in areas of 
training, civil liberties and civil rights, privacy and baseline 
qualifications for analysts. I felt it important to bring this to your 
attention as I know it to be a topic of great interest to you as 
evidenced by your inclusion of $8 million in the Iraq War Supplemental, 
to allow the State and Local Fusion Centers to address many of the 
concerns outlined in Mr. Allen's previous visits before this Committee. 
I am pleased to inform you that $500,000 of this money is planned 
specifically for training in fusion centers on Civil Liberties and 
Privacy and will soon be delivered to our Civil Liberties and Civil 
Rights Office through an interagency agreement.
    Congress continues to be a significant contributor to our success. 
Recognition of our efforts in the Implementing Recommendations of the 
9/11 Commission Act of 2007 (PL 110-53) will help us as we build and 
sustain the Program. We are on track to provide a Department-wide 
Concept of Operations for interaction with fusion centers by November 
as required by the Act.
    I would like to take a moment and detail what the current efforts 
to support State and Local Fusion Centers has accomplished. We have 
seen fusion centers serve as hubs for intelligence collection and 
analysis all over the country--allowing us all the ability to determine 
the exact nature of threats, separate the credible from the non-
credible, and make decisions about what actions to take to protect 
local communities. They support vertical integration through all levels 
of government as well as horizontal integration across the nation.
    Recently the New York State Intelligence Center (NYSIC) received 
three reports of unexplained behavior that took place in three 
different communities across the State. A request was made to the 
Office of Intelligence and Analysis to see if there were other similar 
reports across the country. We checked Intelligence Community, DHS, and 
fusion center databases revealing several other instances of this sort 
of behavior. As stated by New York Deputy Secretary for Public Safety, 
Michael Balboni, ``It is this type of connectivity to the DHS community 
which will provide the intelligence to prevent another attack.''
    Last year, we received threat information that a tall building in 
Los Angeles was the target of a potential attack. We had to decide 
quickly whether this threat was credible, what information to share, 
and what actions to take. Because we had a DHS officer stationed in the 
Los Angeles Joint Regional Intelligence Center, we immediately 
communicated the information to him and offered our view that the 
threat had little credibility, but we wanted to obtain the view from 
the local level. Our officer reached out to the FBI field office and 
the JTTF and together they analyzed the credibility of the threat. DHS, 
FBI, and local law enforcement partners in the JRIC--including the Los 
Angeles Police Department and Los Angeles County Sheriff's Department--
presented that assessment to officials in the Los Angeles area and the 
California Office of Homeland Security. Together, all of these partners 
came to a decision that the threat was not credible. Why is this 
important? First, it saved time and ensured a rapid response. 
Information flowed quickly and was immediately acted upon. Second, it 
was a coordinated effort. Everyone came to an agreement about what 
needed to be done and did not waste a lot of time or resources on 
something that ended up being not credible. Third--and most 
importantly--it allowed state and local authorities to work directly 
with the Intelligence Community to corroborate, or in this case refute, 
threat information originating overseas. The allocation of resources to 
a non-credible threat did not occur ensuring these assets remained 
available for other efforts that required their use. This is a new 
capability that really didn't exist before.
    During the unfolding events of the Virginia Tech incident earlier 
this year, the Virginia Fusion Center, the Virginia State Police, and 
our officer in that Center, were able to keep our office and the 
Secretary informed as the event unfolded. This spirit of cooperation 
allowed us to keep other Homeland Security stakeholders around the 
country in the loop as we quickly determined that this was not a 
terrorist act. The Virginia Fusion Center, responsible for providing 
information to the investigators on the ground, contacted the DHS Law 
Enforcement Support Center, the LESC, to verify the citizenship status 
of the perpetrator as well as information relating to the owner of the 
weapons found at the scene. The need to rule out terrorism was 
especially important to Virginia's fellow States as they all needed to 
know whether their own Universities were at risk.
    And most recently, a traffic stop in Goose Creek, South Carolina 
for speeding occurred involving a car with Florida tags. The two 
Egyptian nationals in the vehicle had materials that could possibly be 
used in making explosives as well as bomb-making manuals. The FBI was 
notified. Both subjects were charged under State law with ``possession 
of a destructive device''. Both remain at the Berkeley County Detention 
Center facing charges relating to immigration violations, which were 
brought by Immigration and Customs Enforcement officers in DHS. This 
event highlights the value of having a national fusion center network; 
nodes in each state prepared to field inquiries from other state and 
Federal agencies and respond quickly to a suspect activity consistent 
with terrorism. In this case, the fusion centers and the deployed DHS 
Intelligence and Analysis officers worked closely together with the FBI 
to meet the immediate information needs of the law enforcement agencies 
on the ground.
    Information is our nation's force multiplier against potential 
terrorist attacks and crime. In all these cases, information was 
leveraged quickly and completely to enable action.

Future Challenges
    I believe that I have given you a good understanding on the current 
status of State and local fusion center efforts, and I am sure Mr. 
Mines will have more information to add. What I would like to do now is 
answer the second part of the committee's request, which asked that I 
detail some of the challenges and what Congress might do to help.
    At the outset of our program's development, we understood that 
identifying, hiring and retaining qualified personnel to deploy to the 
fusion centers as our single greatest risk to the program. These people 
are individual contributors and, in many cases, the single face of DHS 
to the partners in the fusion centers. They have a complex job and our 
information sharing efforts often fall completely in their laps--they 
have to balance sensitive situations in their states as well as engage 
the National Intelligence Community to ensure that everyone has the 
information they need, when they need it. We depend on these people a 
great deal.
    Finding the right officer, with appropriate skills, in this highly 
competitive environment can be difficult. Even though we are a member 
of the Intelligence Community, as part of DHS, we are required to use 
the competitive service processes to hire people. This process often 
does not identify those people we need for these critical positions in 
a timely and efficient manner.
    The Senate Select Intelligence Committee drafted a provision in its 
FY 2008 authorization bill that allows the DNI to convert competitive 
service positions within an IC element to excepted service positions. 
We support this provision.
    We welcome Congress' support of our activities. The Implementing 
Recommendations of the 9/11 Commission Act, however, add several tasks 
to our current Program. We have analyzed these requirements and 
recognize that we will need to substantially reprioritize our efforts 
to ensure we are doing all we can to comply. Several of these efforts 
have been included in the strategic plan previously mentioned, but we 
must increase the scope and the scale of the efforts, including:
        <bullet> Incorporate information gathered in fusion centers 
        into DHS' own information
        <bullet> Integrate the fusion centers into exercises
        <bullet> Provide more fusion center management assistance
        <bullet> Provide robust training for fusion center personnel 
        on-site
        <bullet> Assign officers and intelligence analysts from DHS 
        components
        <bullet> Provide officers and analysts at all levels with 
        continuing privacy and civil liberties training, and
        <bullet> Prioritize support to border fusion centers.

    We need to carry out all of these responsibilities.
    As you are aware State and local fusion centers were the focus of a 
Congressional Research Service Report. While we agree with many of the 
recommendations detailed in the annex of the report, we find the main 
body to be in error in one simple premise made by the report, that 
fusion centers are neglecting their primary mission, that of counter-
terrorism. We do not agree with that assessment, since the premise is 
false. The vast majority of centers stood up as ``all crimes'' centers 
or ``all crimes, all threats, and all hazards'' centers. They like DHS 
understand there are many criminal interdependencies relating to 
terrorism and also understand that threat mitigation, regardless of the 
source of threat requires a coordinated and competent analytical and 
information exchange to be successful. The counter-terrorism role 
remains important to them and continues to receive a great deal of 
attention in spite of the report's conclusion. In addition, DHS works 
closely with state and local communities, not only through law 
enforcement channels, but through mayors' and governors' offices. This 
enables the analysis we jointly provide to enable, not only law 
enforcement actions, but broader community policies and programs that 
allow us to tackle problems before they become criminal. For example, a 
radicalization threat study that focused on at-risk youth or insular 
immigrant populations might influence state and local officials to 
focus on outreach and social service solutions. We in DHS intelligence 
support the centers by looking intensely at terrorism, but we look at 
terrorism through the broader prism of threats to the homeland.
    Fusion centers remain heavily scrutinized, The Government 
Accountability Office will soon be releasing their report on fusion 
centers and just this past week we received notice of a DHS Inspector 
General's investigation prompted by the House Homeland Security 
Committee Chairman which seeks to review the State and Local Fusion 
Center Program and is due out early next year. We welcome the scrutiny 
because we are comfortable in our approach and believe we have made 
major progress in just over a year in managing the program. We believe 
in our State and local government partner's ability to manage the 
information exchange in an environment they control and we know of no 
other effort that has captured this much momentum and success in such a 
short period of time. We are sensitive to the scrutiny of the many 
civil liberties organizations of our mutual information exchanges with 
our State and local partners. Our program office, which is smaller than 
you might imagine struggles mightily to address and respond to these 
concerns. I think however it important to emphasize that we have thus 
far only responded to the potential for abuses, we are not aware of any 
actual abuses occurring in our information exchanges, nor does evidence 
suggest that there are any. I applaud Congress on their efforts to 
assist our office as we move forward in this relationship.

Final Thoughts
    I would like take a moment to share some highlights of our recent 
progress in the areas of outreach, focused requirements development, 
and enhanced internal coordination. As the fusion center concept 
evolves, it is becoming clear that there are other non-traditional 
partners who may have a legitimate need to participate, and we have 
begun discussions on how to incorporate their needs.
    Just in the past several weeks, senior DHS intelligence 
representatives have engaged potentially vital new partners in our 
information-sharing efforts. New York City Fire Commissioner Nicholas 
Scoppetta and Mr. Allen keynoted the first national meeting of the Fire 
Service Intelligence Enterprise Conference. At this first-of-its-kind 
conference, the major city fire chiefs and our federal representatives 
explored ways in which the first responder community can become more 
integrated into our networks, and how we can produce information 
tailored to their needs. We brought their ideas back to Washington, and 
met with senior leadership of the Federal Emergency Management Agency, 
which oversees the U.S. Fire Administration and its many member 
organizations. This step reinforces DHS' position that many first 
responders are the first to identify threats in their regions and they 
too are a valuable and contributing member to the fusion process.
    You may be aware that this year DHS, along with our federal 
partners sponsored the first ever National Fusion Center Conference in 
Destin, FL. I believe several staffers were in attendance and we were 
also fortunate to have the Secretary speak at this conference as well. 
The Destin conference had over 600 attendees, nearly 450 of which were 
State or local representatives. Next year's conference will be held in 
San Francisco and will focus on the inclusion of non-traditional 
partners in fusion centers to include Fire/EMS, public safety, natural 
resource managers, and public health to name a few. This conference is 
expected to host nearly one thousand guests this year and we expect the 
vast majority to be our State and local partners. I extend to you now, 
Madame Chairwoman, an invitation to meet with these fine partners in 
March next year, as I know this is your home State. Many of the Fire 
Chiefs I mentioned earlier will be in attendance. This signifies our 
intention to assist State and local governments in the continuing 
development of these centers.
    In the same time period as the Fire Services Intelligence 
Enterprise meeting, I attended the DSAC Academy, sponsored by the FBI. 
The Domestic Security Advisory Council has been developed using the 
successful model of OSAC in the Department of State. Chief Intelligence 
Officer Allen has made a commitment for I&A to be full partners with 
the Bureau in this important initiative. This joint FBI/DHS Program is 
intended to provide the private sector in the United States with threat 
information that will inform their decisions on how to mitigate 
threats, and open a channel to DHS and the Bureau for intelligence from 
the private sector.
    Finally, and perhaps as important as any of our initiatives, we are 
conducting a pilot program concentrating on five fusion centers in New 
York, California, Florida, Massachusetts, and Illinois. The pilot 
program is being driven by a small team of experienced security and 
intelligence personnel. The goal is to improve DHS's ability to meet 
the needs of fusion centers in three key areas: standing information 
needs, requests for information, and open source support. The team has 
visited the pilot sites, and engaged the centers' leadership and staff. 
Based on their feedback, we are working to adjust the way we receive 
and respond to fusion center strategic and tactical information needs, 
while ensuring the protection of our citizen's fundamental rights. We 
also will help fusion centers improve their ability to exploit open 
source information. In the coming months, DHS will pilot new procedures 
with the five sites, continuously seeking their input along the way to 
ensure that their needs are being met effectively and efficiently. 
While the Department and its components have been delivering products 
to our partners for years, the fusion center pilot program gives us an 
opportunity to fine-tune these products based on the direct, continuous 
input of our state and local partners and increase the products' value. 
We will implement changes which emerge from the pilot with fusion 
centers across the country.
    While it is barely a year old, the State and Local Fusion Center 
Program is making steady, solid progress toward accomplishing the 
critical national mission of creating an information sharing 
environment that works for all of us.
    I'll be happy to take your questions.

    Ms. Harman. Thank you.
    Mr. Mines, please summarize your testimony in 5 minutes.

    STATEMENT OF MICHAEL MINES, DEPUTY ASSISTANT DIRECTOR, 
  DIRECTORATE OF INTELLIGENCE, FEDERAL BUREAU OF INVESTIGATION

    Mr. Mines. Good morning, Chairman Harman and members of the 
subcommittee. I am pleased to be here with my colleagues to 
discuss with you our collaborative efforts in the support of 
fusion centers.
    The FBI, along with DHS and DOJ, establish partnerships 
with fusion centers to provide, among other things, manpower 
and operational advice, with the goal of fashioning a 
nationwide network of fusion centers that would be the 
cornerstone for information sharing with state, tribal and 
local agencies in order to maximize the nation's ability to 
detect, prevent, investigate and respond to terrorist and 
criminal activity.
    In furtherance of this goal, FBI Director Robert Mueller 
instructed each field division to participate in fusion centers 
across the country. As a result, the FBI has assigned over 200 
agents and analysts in 36 fusion centers and plans to increase 
the level of personnel commitment in the near future.
    Throughout its history, the FBI has relied on strong 
relationships with its partners in order to carry out its 
mission. These relationships have proved critical since the 
terrorist attacks of 9/11. Our participation in fusion centers 
continues this tradition of partnership.
    We have made great strides with the fusion center 
initiative over the past year, but we realize that there is 
more work to be done. With our partners, we will continue to 
streamline the security clearance process, improve the 
facilitation of access to federal data systems, formulate and 
deliver training, and provide additional guidance.
    The FBI is working to resolve this issue with DHS, DOJ and 
our state, local and tribal partners.
    My full statement is submitted for the record. I appreciate 
the opportunity to be here today and I look forward to 
answering your questions.
    [The statement of Mr. Mines follows:]

                 Prepared Statement of Michael C. Mines

    Good morning, Chairman Harman, Ranking Member Reichert, and Members 
of the Subcommittee. I am pleased to be here today to demonstrate the 
Federal Bureau of Investigation's (FBI) commitment to the timely 
sharing of intelligence and information related to our national 
security.
    As the Deputy Assistant Director of the Directorate of 
Intelligence, I want to share with you the central and critical mission 
of enhancing the FBI's ability to stay ahead of the threat by our 
collaborative efforts with our federal, state, local, and tribal 
partners. By these partners, I am referring to the network of fusion 
centers whose goal is to ``maximize the ability to detect, prevent, 
investigate, and respond to criminal and terrorist activity.''
    Our participation in the fusion center network allows us to provide 
a national perspective on regional threats and trends, so we can better 
inform decision makers at all levels. I thank you for this opportunity 
to testify about the FBI's involvement with fusion centers.

Fusion Centers
    The establishment of this general of fusion centers stemmed from 
The Intelligence Reform and Terrorism Prevention Act of 2004, which 
required the President to facilitate the sharing of terrorism and 
homeland security information by establishing an information-sharing 
environment (ISE) to link people, systems, and information among 
federal, state, local, and tribal partners and the private sector. The 
Department of Homeland Security, along with the Department of Justice, 
established partnerships with fusion centers to provide operational 
intelligence advice and management assistance and to facilitate close 
communication. The goal was for the federal government, through the 
ISE, to rely on a nationwide network of fusion centers as the 
cornerstone for information-sharing with state, tribal and local 
governments.
    In September 2005, the FBI's fusion center initiative began when 
FBI Director Robert S. Mueller III instructed all Assistant Directors 
in Charge (ADICs) and Special Agents in Charge (SACs) to ensure 
coordination among the FBI and all statewide fusion centers and 
significant major regional fusion centers. These activities were 
reinforced in 2006 with the dissemination of policy and guidelines for 
FBI integration with statewide fusion centers and the Department of 
Homeland Security, to jointly codify expectations for our roles in 
these centers and to place a minimum of one Special Agent (SA) and one 
Intelligence Analyst (IA) in the lead fusion center in each state.
    The FBI has always depended on strong partnerships with our state, 
local, and tribal counterparts. Our participation in the fusion center 
network continues this tradition of partnering. The FBI recognizes that 
fusion centers are fundamental in facilitating the sharing of homeland 
security and criminal-related information and intelligence and 
considers our participation in fusion centers an extension of our 
tradition of strong working relationships with our state, local, 
tribal, and private sector partners. The FBI has been an active 
participant in the information-sharing environment ISE Program 
Manager's development of Guideline 2 and is ensuring our partnerships 
with fusion centers are consistent with that guideline. The FBI is also 
an active partner in developing the implementation plan for a national 
level coordination group to facilitate timely information-sharing.

Fusion Centers and Information-Sharing
    The FBI participates in One DOJ, the Information-Sharing Policy 
Coordination Committee, the Fusion Center Coordination Group, and the 
Global Justice Information Sharing Initiative Advisory Committee to 
define further, the relationship between the fusion centers and the FBI 
and the Department of Justice and the Department of Homeland Security. 
Fusion centers are fundamental in facilitating the sharing of homeland 
security and law enforcement related information among agencies in 
specific geographic areas. To that end, the FBI is committed to 
participating in all leading statewide fusion centers and select 
regional fusion centers. Further, our participation in these fusion 
centers has expanded and enhanced our efforts to share raw intelligence 
reporting and analysis with state, local, and tribal entities. Also, 
our efforts and ability to produce bulletins jointly with DHS, for the 
consumption of our law enforcement partners has been enhanced 
dramatically through our participation in the fusion centers.

FBI Participation in Fusion Centers
    Currently, the FBI participates in 36 fusion centers, which is 
realized through our 56 Field Intelligence Groups (FIGs), that serve as 
the primary link between the FBI and the fusion center network. To 
date, a total of 256 FIG personnel are assigned to the 36 fusion 
centers throughout the United States. Of these, 68 are Special Agents, 
123 are Intelligence Analysts, and 65 are personnel assigned to other 
work roles (e.g., Language Analysts, Financial Analysts, and 
Investigative Support Specialists).
    We have established connectivity to the FBI's secure level computer 
system in 25 of the 36 supported fusion centers. In addition, the FBI 
has obtained security clearances for 520 state and local personnel 
assigned to fusion centers.
    Presently, 16 of the 36 fusion centers in which the FBI is involved 
are co-located with the respective division's FIG, leading to even 
stronger partnerships. Each FIG provides the intelligence link to the 
Joint Terrorism Task Forces (JTTFs) as well as fusion centers, FBIHQ, 
and the U.S. Intelligence Community at large.

How does the FBI decide which center to support?
    Through our participation in One DOJ, the Information-Sharing 
Policy Coordination Committee, and the Fusion Center Coordination 
Group, we work to clearly define the relationship between the fusion 
centers, the FBI, other Justice Department components, and the 
Department of Homeland Security. The FBI's Directorate of Intelligence 
coordinates FBI participation in fusion centers with other Justice 
Department components, the Department of Homeland Security, and our 
other federal partners.
    The FBI has adopted the Global Justice Fusion Center Guidelines as 
a tool to be used by field offices when assessing the fusion center 
environment in their territory and when prioritizing participation in 
multiple fusion centers.
    All FBI field offices must assess the information-sharing 
environment within their territory and assign FBI FIG IAs and SAs to 
the leading fusion center in their area. FBI participation in the 
fusion center network is in the form of personnel and connectivity 
rather than direct funding.
    The field office Special Agent in Charge (SAC) assesses the 
maturity of the fusion center by asking the following questions:
        1. Does it have a facility and connectivity to local systems?
        2. Will multiple agencies commit full-time personnel?
        3. Is the fusion center attempting to meet the Global Justice 
        Guidelines?
        4. Does the fusion center cover a significant region or 
        metropolitan area?
    If the fusion center meets the aforementioned criteria, then the 
FBI participation is mandatory. If the fusion centers are not mature 
enough to warrant full time FBI personnel assignment, the SAC is 
directed to establish an effective and robust connectivity allowing for 
effective two way exchange of intelligence.
    Given that fusion centers are created and managed by state and 
local entities, the FBI and our federal partners cannot mandate the 
centers to adhere to specific guidelines. However, we continue to work 
with the Department of Justice, Department of Homeland Security and 
Department of State to develop the suggested guidance for these 
centers.
    The FBI subscribes to the concept of one federal voice when 
addressing issues relevant to the fusion center network, and we are 
committed to coordinating this outreach with our federal partners.

Fusion centers and JTTFs
    FBI personnel selected for an assignment to a fusion center are 
selected from the FIG of the local FBI field office. As such, their 
participation serves as an extension of the FIG and a conduit for 
information-sharing and collaboration between the FBI and the fusion 
center. They accomplish their work as part of the fusion center team, 
ensuring that the local FIG is responsive to the needs of the fusion 
center, while looking for opportunities to leverage fusion center and 
FIG resources as a ``force multiplier.'' FBI personnel assigned to 
fusion centers are tasked with four basic missions:
        1. Establish a gateway/connectivity between the FBI and the 
        federal, state, local and tribal partners across all 
        investigative programs.
        2. Provide an effective two way flow of information through the 
        intelligence cycle (e.g., requirements, taskings, intelligence 
        and feedback) between the fusion center and the FBI.
        3. Participate as an investigative/analytic partner in 
        uncovering, understanding, reporting and responding to threats.
        4. Ensure the timely two way flow of terrorism-related threat 
        information between the fusion center and the local JTTF and 
        FIG.
    All terrorism information and intelligence generated from the 
fusion center/FIG relationship will continue to be directed to the 
JTTFs. The JTTFs remain the recognized and designated environment for 
which federal to local operational partnerships take place to detect, 
investigate, and disrupt terrorist threats or pursue perpetrators.
    There are 101 JTTF locations throughout the United States, 
involving the participation of 5,535 investigative personnel from more 
than 700 federal, state, and local law enforcement agencies.

Challenges Ahead
    The FBI recognizes how essential fusion centers are, and I will 
address some of the challenges that we face today. In our efforts to 
establish and operate these fusion centers, we encountered some 
limitations: accessing information from federal systems or networks, 
obtaining security clearances, funding, and sustainability, and 
developing sufficient guidance and training. We are working with 
federal agencies to review these information systems and discover ways 
to streamline system access. We have set goals to reduce the time to 
obtain a security clearance. And lastly, we are working with the 
Department of Homeland Security to establish guidelines and training 
for fusion center personnel.
    The FBI is in the process of working through these challenges and 
harmonizing with the Department of Homeland Security and our state, 
local, and tribal partners to resolve these issues.

FBI Cooperation with Federal Partners
    The FBI participated in establishing the Global Justice Fusion 
Center Guidelines published in 2005, and we continue to participate in 
the National Fusion Center Coordination Group, which I co-chair with 
DHS. The FBI is committed to sharing information with all intelligence 
initiatives, including the state and local fusion centers. This will be 
accomplished through participation in working groups, committees, and 
ongoing liaison.
    Our participation in the fusion centers has enhanced our ability to 
provide intelligence and direction to federal, state, local, and tribal 
partners on the tactics and vulnerabilities of international and 
domestic terrorist groups, as well as potential indicators of terrorist 
activity. Insofar as it is important that the federal government speaks 
with one voice on terrorism, 80 percent of the assessments and 
bulletins issued in FY2007 were produced jointly with the DHS.
    The FBI continues to partner with DHS to further clarify our 
respective roles and avoid unnecessary duplication. We look forward to 
additional coordination with the Department of Justice, the Department 
of Homeland Security, and other federal partners in the fusion center 
initiative. Meanwhile, we are pleased that state and local fusion 
center personnel will be participating with us and our federal partners 
in the Interagency Threat Assessment and Coordination Group (ITACG). 
Just as the fusion centers strive to attain a shared view of the 
threats in their specific regions, the ITACG will facilitate the 
production of ``federally-coordinated'' terrorism information products.
    Our participation with these fusion centers will strengthen the 
FBI's relationships with its law enforcement and U.S. Intelligence 
Community partners, allow for the exploitation of robust intelligence 
streams, and expand the FBI's intelligence capabilities.
    I appreciate the opportunity to be here today, and I would be happy 
to answer any of your questions.

    Ms. Harman. Thank you very much and thank you for being so 
efficient.
    The chair now recognizes Mr. Beasley for 5 minutes.

STATEMENT OF NORMAN BEASLEY, COORDINATOR FOR COUNTER TERRORISM, 
                MARICOPA COUNTY SHERIFF'S OFFICE

    Mr. Beasley. Good morning, Madam Chairwoman, Representative 
Harman, and the distinguished members of the subcommittee. 
Again, I am Norm Beasley, with the Maricopa County Sheriff's 
Office, and it is an honor to be here today representing both 
the sheriff's office, Sheriff Joe Arpaio, the state of Arizona 
and the men and women of the Arizona counterterrorist 
information center.
    And at this point, I would be remiss in not publicly 
commenting on the support that we have received from both the 
FBI and the Department of Homeland Security. We could have not 
have done and been as successful as we have been in Arizona 
without their support.
    The critical link in the overall intelligence process are 
the agencies that are closest to their communities--that is us, 
state and local. The challenge really faced by the national 
intelligence community is how to establish real-time linkages 
between those jurisdictions in order that they can provide 
real-time intelligence to them, and, I think equally important, 
receive real-time intelligence from those state and local 
agencies.
    I now wish to comment on several issues that were raised by 
the CRS report. The first one is a national fusion center 
strategy. State and local fusion centers were developed to meet 
local operational needs. There are no two fusion centers alike 
nor should they be.
    However, there can and should be some consistency both in 
information sharing protocols and in baseline capabilities. To 
this end, the federal government should develop and articulate 
a national fusion center strategy that clearly defines the role 
of that state and local fusion center and within the national 
intelligence community architecture.
    Technical assistance: This is a critical component of both 
the DOJ and DHS program that supports state and local fusion 
centers and is already addressing a number of the issues raised 
by the CRS report.
    This program provides onsite assistance to state and local 
fusion centers in developing their programs. Supported by both 
the FBI and DHS, the TA program can and does ensure consistency 
between state and local fusion centers in areas where there is 
common ground by providing early assistance in the development 
and implementation process.
    It also has proved to be a vehicle for creating a strong 
partnership among jurisdictions' multidisciplinary 
stakeholders.
    Training: Training that is specific to state and local 
fusion centers is an essential element of the overall national 
program. While many state and local fusion centers have a well-
established training program that covers the privacy, security, 
intelligence operations, what is really needed is an expanded 
capability that is specific to those fusion centers.
    Examples would be analytical intelligence fusion center 
leadership, sustaining that intelligence function, a terrorism 
liaison officer program, community outreach and how do these 
fusion centers interact with the national intelligence 
community.
    Funding: Probably one of the primary concerns of the fusion 
center community. How do we receive funds to start up a fusion 
center? How do we receive money to sustain it?
    Realizing that the federal grant moneys are not a lifetime 
grant, and there has to be a partnership between not only the 
federal government, but the state and local jurisdictions that, 
at some point in time, those fusion centers will become the 
responsibility of that state and local jurisdiction.
    Ideally, under the grant process, there needs to be a 
specific funding stream for fusion centers under prevention, so 
there is some very clear guidance to those state and local 
fusion centers as to where their money is going to come from.
    Information sharing is the core issue facing us today. Our 
homeland security efforts must be information-driven. 
Everything we do has got to be based on real-time, solid 
intelligence.
    Prevention as the primary concern in our ability to 
collect, analyze and, most importantly, share information is 
paramount in this process. Currently, the federal government 
has taken a number of steps to enhance the information sharing 
process.
    While it is unrealistic to have one system that fits all, 
what we would like to see is one system that does provide that 
connectivity between the state and local fusion centers and the 
national intelligence community. And looking at the national 
terrorist screening center, that may be the vehicle that 
accomplishes this.
    In closing, again, I want to thank you for the opportunity. 
I have included a case study done by DHS on the Arizona 
counterterrorist information center that gives the committee an 
overview of a mature center. And I am ready to answer any 
questions.
    [The statement of Mr. Beasley follows:]

                  Prepared Statement of Norman Beasley

    Good morning Madam Chairwoman Representative Harman and the other 
distinguished members of this Subcommittee. I am Norman Beasley, 
Counter-Terrorist Coordinator for the Maricopa County (Arizona) 
Sheriff's Office. It is an honor to be here today representing the 
Sheriff's Office and Sheriff Joe Arpaio as well as the State of Arizona 
and the men and women of the Arizona Counter Terrorist Information 
Center.
    I am a 40 year law enforcement veteran with over 30 years of 
experience in intelligence and counter-terrorism operations. I served 
with the Arizona Department of Public Safety retiring with 37 years of 
service. I commanded the Intelligence Bureau and the operations of the 
Arizona Counter Terrorism Information Center. This fusion center is 
viewed as one of the model centers in the Country. In addition to my 
Sheriff Office assignments I provide support to the United States 
Department of Justice and United States Department of Homeland Security 
Fusion Center Technical Assistance Programs. These programs provide on-
site assistance to state and local fusion centers throughout the 
country in developing and implementing operational and administrative 
capabilities. In this capacity I have been to over 20 state and local 
fusion centers and have had contact with virtually all of the nation?s 
state and local fusion centers.
    My testimony here today centers on the Congressional Research 
Report, ``Fusion Centers: Issues and Options for Congress''.
    The tragic events of September 11th and the subsequent report by 
the National Commission on Terrorist Attacks Upon the United States 
(911 Commission Report) focused on the critical need for information 
sharing not only at the Federal level, but also at the state and local 
levels. The critical link in the overall National intelligence process 
is the agencies that are closest to their communities. . . The 
challenge faced by the National Intelligence Community is how to 
establish real time linkages between state and local agencies that 
allows both receiving information from and providing information to 
their fusion centers.
    State and local fusion centers are in the best position to 
accomplish this mission. Established to function as the central point 
of contact within their jurisdictions, they coordinate the collection, 
analysis and dissemination of information/ intelligence and function as 
the controlling hub that links local, state, regional and national 
intelligence interests.
    Their ultimate goal is to support their consumers with beneficial 
information. But, the consumers also have a critical role in the 
production of information and ultimately intelligence. The fusion 
centers are in the pivotal position to tap into these vital resources 
and provide collection guidance to these agencies. They also provide 
investigative, analytical and research resources that in many cases are 
not available in smaller jurisdictions.
    Many of the initial State and local fusion centers were not a 
product of Federal direction or suggestion. They were envisioned by 
forward thinking state and local officials who saw the critical need to 
establish an information sharing environment within their 
jurisdictions.
    As the commander of one of the Nation's first fusion centers I have 
seen this program grow to over to now over Forty fusion centers 
nationwide. This growth has enhanced the overall information sharing 
between agencies at the state, local and federal level, but has also 
created numerous challenges. Having worked with over 20 of these fusion 
centers as part of the USDHS/USDOJ technical assistance program, I have 
seen firsthand the potential of these centers in enhancing the security 
of their jurisdictions and the country.
    I have had the opportunity to participate in the Congressional 
Research Service Report ``Fusion Centers: Issues and Options for 
Congress'', both as a provider of information and as a reviewer of the 
draft product.
    I found that the report has captured the essential issues facing 
fusion centers nationwide and their relationship with the National 
Intelligence Community. It can and should provide a solid road map not 
only for the Federal government but also, state and local governments, 
to further enhance the fusion center program thereby strengthening the 
country's overall home security efforts.
    I now wish to comment specifically on several of issues raised by 
the Report.

1. National Fusion Center Strategy
    The Information Sharing Environment Implementation Plan has 
recognized the value of State and local fusion centers. State and local 
fusion centers have been developed to meet local operational needs. No 
two fusion centers are exactly alike, nor should they be. However, 
there can and should be some consistency in information sharing 
protocols and baseline capabilities. To this end the Federal government 
should develop and articulate a national fusion center strategy that 
clearly defines the role of state and local fusion centers in the 
National Intelligence Community Architecture. This includes tasking and 
providing information collection guidance to state and local fusion 
centers that compliments state, local and federal efforts. Conversely 
state and local fusion centers must make the National Intelligence 
Community aware of their specific needs and requirements.
    In addition, USDHS/USDOJ should move forward with establishing the 
baseline capabilities that state/local fusion centers can follow in 
developing and carrying out their programs. These baseline capabilities 
should link with the established ``Fusion Center Guidelines''. In 
developing these baseline capabilities, USDHS/USDOJ must realize that 
no two state/local centers are exactly alike. These centers were 
developed to address local issues and the challenge to the Federal 
Government is to integrate their operations into the larger National 
Intelligence Community.

2. Technical Assistance
    This is a critical component of the USDHS/UDOJ program to support 
state and local fusion centers and is addressing a number of the issues 
raised by the CRS Report. It received favorable comments from the CRS 
Report. This program provides on-site assistance to state/local fusion 
centers in developing their programs. It supplies experienced subject 
matter experts with fusion center experience to work with key state/
local fusion center staff, executives and stakeholders. Some of the 
assistance includes: developing a center concept of operations plan, 
business planning including sustainment funding issues, state/local 
legal authority, privacy policy, building trusted partnerships, center 
outreach programs including terrorism liaison officers and community 
liaison agents, training and technology applications.
    The on-site technical assistance deliveries are supported by 
representatives from USDHS/FEMA Capabilities Division, Intelligence and 
Analysis and the Federal Bureau of Investigation.
    Respondents to the CRS Report that had used the technical 
assistance services view the experience as favorable as a first step. 
Follow up technical assistance in the form of a mentorship program was 
seen as adding additional value to the program. Based on my experience 
working with these centers, I agree that the two phase approach to 
technical assistance will and on an informal basis already is improving 
fusion center operations.
    The technical assistance program can and does ensure consistency 
between state/local fusion centers in areas where there is common 
ground, by providing early assistance in the development and 
implementation process. It also proved to be a vehicle for creating 
strong partnerships among the jurisdictions multidisciplinary 
stakeholders.

3. Training
    Training that is specific to state/local fusion center operations 
is an essential element of the overall national program. The CRS Report 
addresses training issues involving; civil liability, 28 CFR Part 23, 
common lexicon/definitions, handling classified information, community 
outreach and mentorship. While these are valid considerations, fusion 
center specific training needs to be expanded. Many state and local 
fusion centers already have a baseline training requirement for all of 
its personnel that covers 28 CFR Part 23, civil liberties and privacy 
and handling classified information.
    Expanded training considerations should center on specific critical 
functions of state/local fusion centers. They include; advanced 
analytical, intelligence/fusion center commander/leadership, sustaining 
the intelligence function, terrorism liaison officer, community 
outreach and interacting with the National Intelligence Community.
    The USDHS/FEMA Capabilities Division has already taken steps to 
develop many of the above programs. Both USDHS & USDOJ have created web 
portals that provide for best practices and related information for the 
operation of fusion centers and intelligence operations.
    USDHS/USDOJ sponsored National and regional fusion center 
conferences have been held bringing together senior fusion center 
leadership and their Federal partners.

4. Funding
    The issue of funding is a priority concern for the majority of the 
state/local fusion center community. Most state/local jurisdictions 
rely on Federal funds in varying degrees to support their fusion center 
operations. Without Federal funding support many centers would be in 
danger of ceasing or significantly reducing operations.
    Currently fusion centers are funded by the USDHS Homeland Security 
process. While Prevention in a critical funding component the overall 
process at the state and local level is completive in application. 
Fusion center funding requests are evaluated with other homeland 
security projects and may or may not receive the funding necessary 
because of limited funds and competing priorities.
    Ideally, under the USDHS grant direction consideration should be 
given for a separate category for fusion center funding under 
prevention. Major funding categories are initial start up and 
sustainment, with the most concern being sustainment.
    This issue is a joint partnership between the Federal Government 
and state/local jurisdictions and both must take steps to resolve this 
issue.
    The Federal government in assessing the allocation of funds for 
state/local fusion centers could apply the baseline capability 
standards that are currently under development. Centers that meet or 
are making progress on implementing them would receive funding for 
start up costs.
    Sustainment funding presents additional challenges. Federal grant 
funding is not intended to provide long term sustainment. As such 
state/local jurisdictions need support for a period of time in order 
for the development and submission of their budget proposals to their 
governing bodies. Ultimately state and local jurisdictions should be 
responsible for continued funding of their fusion center operations.
    As outlined in the Information Sharing Environment Implementation 
Plan state/local centers will become a part of the National 
Intelligence Program. As such if these centers provide direct support 
to ongoing Federal programs that require funding and center resource 
allocation, then the Federal government should provide continued 
funding support. An example of this effort is the Maricopa County 
Sheriff's Office Facial Recognition Program. Working in conjunction 
with the U.S. Department of Justice the Facial Recognition Program has 
been provided with access to the Federal Joint Automated Booking System 
and all of the Federal arrestee's photographs. In addition the MCSO is 
partnering with the Federal Bureau of Investigation to support their 
violent gang and criminal investigations through the use of the Facial 
Recognition Program. The MCSO is also working with agencies and fusion 
centers nationwide to establish a facial recognition network that will 
support criminal investigations and the recovery of missing and 
abducted children.

5. Information Sharing
    Information sharing is the core issue facing us today Homeland 
security efforts must be information driven. Prevention should be the 
primary concern and the ability to collect, analyze and most 
importantly share information is paramount in this process.
    One of the chief complaints of state and local officials is the 
lack of actionable information from the National Intelligence 
Community. This is exactly why state/local fusion centers were 
implemented.
    Currently, the Federal government has taken steps to improve and 
enhance information sharing at all levels of government. While many of 
these efforts have improved the process, what has resulted is a wide 
variety of information sharing systems that in many cases republish the 
same information. Having to view multiple systems is labor intensive, 
time consuming and after a period of time loose its value. While it is 
unrealistic to have only one system, consideration should be given to 
having one system that provides network connectivity to the National 
Intelligence Community and the state/local fusion center network. There 
needs to be a clear linkage from the state/local fusion centers and the 
NIC. Having a clear understanding and framework is essential in sharing 
critical homeland security information. The National Counter Terrorist 
Screening Center, already established may be the vehicle to accomplish 
this.
    One Federal system that has demonstrated value and one that I 
personally use daily is USDHS-Intel. This system has been deployed to a 
number of state/local fusion centers. Providing Law Enforcement 
Sensitive, FOUO and SBU information it targets the working element of 
fusion centers. Participants include representatives of the Federal 
government. HSIN-Intel allows for requests for information and has a 
weekly conference call to follow up on issues. Other systems that have 
proved valuable are the FBI Law Enforcement on Line and the Regional 
Information Sharing System.

6. Additional Comments
    While the Report provides Congress with options, this is a 
partnership between the state, local and Federal governments and as 
such the states have an equal role to play.
    In considering the development and implementation of a state and 
local fusion centers, state and local political and executive level 
leadership need to consider the following:
    <bullet> There must be a clear vision of what the role and 
responsibility of the fusion center will be. State and local agencies 
must look at their jurisdictions and develop a fusion center based on 
state and local needs. This vision must address the benefits to the 
stakeholders by their participation.
    <bullet> There must be a well established partnership between all 
involved agencies both public and private. This is critical for the 
overall success. Stakeholders must support the fusion center as the 
central point of intelligence for the state. The use of systems in the 
sharing of information is important, but the critical component is 
people. There must be personal contact in order to build the trust 
necessary for the sharing of information to be successful.
    <bullet> There has to be sufficient resources devoted to the 
project and these resources must have the necessary expertise to carry 
out the mission. Stakeholders will be looking for support. Failure to 
provide sufficient resources to carry out the fusion center mission 
will adversely affect the relationships and will negatively impact the 
ability to process and share information.
    <bullet> There has to be a solid commitment from all agencies 
involved. This includes both center participating and consumer 
agencies. The Federal Bureau of Investigation and the local Joint 
Terrorist Task Force must be a key component of the state fusion 
center. The level of commitment of the FBI and other participating 
agencies should be determined by local needs, but the assignment of 
resources to the state center should reflect a strong commitment by 
participating agencies.
    <bullet> There has to be support from the highest levels of state 
and local government. The Governor, city and county executives, the 
state and local office of homeland security play a vital role in this 
area. This support extends to the state legislature and elected 
officials from local governments.
    <bullet> In response to the ISE Implementation Plan the Governor of 
each state should designate the lead fusion center within their state.
    <bullet> There has to be a well defined funding strategy that 
involves both federal and state appropriated funds. While Federal 
Homeland Security Grants can provide initial funding a strategy must be 
developed that looks at sustained funding options.
    <bullet> There must be a display of visible leadership in the 
development, implementation and operational stages. Intelligence is a 
personality driven process. It is built on trust and once trust is 
established the exchange of information between agencies becomes 
institutionalized.
    The key to homeland security is prevention and intelligence is the 
cornerstone of that effort. Everything we do must be information 
driven. The better the information the better we will be able to 
prevent a terrorist act. We have the opportunity to build a lasting 
intelligence effort. But it will take a commitment from local, state 
and federal levels to make it work. No agency can or should do this 
alone. It is a partnership that will continue to grow with the ultimate 
goal of providing the safest and securest environment for our citizens.
    The Arizona Counter Terrorist Information Center is an example of 
the application of the above considerations. ACTIC has been identified 
as one of two best practices in homeland security by the National 
Governors Association and one of five best practices in homeland 
security by the Council of State Governments.
    I have included an ACTIC case study prepared by the United States 
Department of Homeland Security to supplement my testimony today.
    [Information follows:]
Attachment:
--------------------------------------------------
Fusion Center Case Study
Arizona Counter Terrorism Information Center
--------------------------------------------------
Issue
--------------------------------------------------
    Arizona developed and implemented the Arizona Counter Terrorism 
Information Center (ACTIC) as a cross-jurisdictional partnership 
managed by the Arizona Department of Public Safety (DPS) and the 
Federal Bureau of Investigation (FBI). The Center integrates Federal, 
State, and local law enforcement, as well as first responders, 
emergency management and, when appropriate, the private sector. A 24/7 
Watch Center is the central location for all information coming in and 
out of the ACTIC. It functions as a multi-agency all-crimes effort 
staffed by members of DPS and other Federal, State, and local agencies. 
The center is co-located with the FBI Joint Terrorist Task Force 
(JTTF).

History and Evolution
--------------------------------------------------
    Prior to the terrorist attacks of September 11, 2001, the State of 
Arizona relied on a pre-existing emergency response infrastructure that 
was created in the late 1990s: In 1997 the Division of Emergency 
Management (DEMA) and DPS established the Domestic Preparedness Task 
Force, which consisted of representatives from more than 40 public and 
private entities, and that met regularly to review response and 
recovery plans. The group originally included representatives from the 
Phoenix and Tucson metropolitan areas, but over the years expanded to 
include agencies throughout the State.
    At about the same time, the State established an Emergency 
Operations Center (EOC) within DEMA that could be fully activated 
within one hour. The EOC brought together the relevant public and 
private entities to address emergency situations. DEMA's Emergency 
Response and Recovery Plan, developed in 1998, details the specific 
responsibilities of each agency.
    Post September 11, 2001, DPS increased the capabilities of the 
Domestic Preparedness Operations Center, including the creation of a 
secure Web site to share information with local, county and other 
authorities; dedicated additional intelligence analysts and 
investigators to collect and analyze terrorism-related information; 
appointed additional personnel to the JTTF; and increased security at 
critical infrastructure and key resource sites such as the Hoover Dam 
and the Palo Verde nuclear facility. This was to become the foundation 
of the ACTIC.
    In 2002, the incoming Governor reviewed the State's homeland 
security efforts and made several significant changes, including the 
appointment of a State Homeland Security Director, establishment of a 
homeland security plan, updating the State Emergency Response and 
Recovery Plan, and development of formal protocols to facilitate multi-
agency coordination. The Domestic Preparedness Task Force was disbanded 
and the State established a regional approach by dividing the State 
into five regions that encompass all 15 counties and 22 tribal nations.
    To address prevention activities, the State established a statewide 
integrated justice system to link the information systems used by 
Federal, State, local, and tribal entities to support the 
identification of emerging terrorism-related trends. It created a 24/7 
intelligence/information analysis center to serve as a central hub to 
facilitate the collection, analysis, and dissemination of crime and 
terrorism-related information. This system and the Domestic 
Preparedness Operations Center, which was only staffed in the event of 
an incident, became the core of the ACTIC.

Mission Statement
--------------------------------------------
    The mission of the ACTIC is:
    ``To protect the citizens and critical infrastructures of Arizona 
by enhancing intelligence and domestic preparedness operations for all 
local, State and Federal law enforcement agencies.''
    The Mission will be carried out with the understanding that the key 
to effectiveness is the development and sharing of information between 
participants to the fullest extent as is permitted by law or agency 
policy.

Operational Area
------------------------------------------
    The ACTIC serves the entire State of Arizona, which is divided into 
five Homeland Security Regions that span the State's 15 counties and 22 
tribal nations. The two major metropolitan areas are Phoenix and 
Tucson. The Phoenix metropolitan area has a population of approximately 
3.25 million--the fourteenth largest in the United States. The Tucson 
metropolitan area has a population of approximately 843,000. The State 
is considered one of the Nation's leading technology centers; it is 
home to more than 3,800 high-tech (aerospace, information technology, 
biosciences, semi-conductor) firms that employ more than 1.9 million 
people. It is also home to the Palo Verde Nuclear Generating Station, 
one of the largest producers of nuclear energy in the world, and the 
Hoover Dam, which is located on the Arizona/Nevada border.
    There are more than 6,100 miles of highway, a portion of which 
includes the CANAMEX Corridor, a North-South trade corridor that 
facilitates the flow of goods between Mexico, the United States, and 
Canada.
    The State also shares a 377-mile border with Mexico, which presents 
a unique challenge from the perspective of homeland security. Within 
the State, there are eight ports of entry for commercial vehicles, 
personal vehicles, and pedestrian traffic, as well as hundreds of miles 
of unsecured territory. While the southwest border represents a 
potential gateway for terrorists and weapons of mass destruction to 
enter the U.S., it is also an important corridor for the movement of 
goods and people, both of which are part of the economic lifeblood of 
the communities located there.

Organizational Model
------------------------------------------------
    ACTIC is a multi-agency operation staffed by 240 Federal, State, 
and local officers, analysts, and support personnel from 41 different 
agencies. It is co-located with the JTTF, and functions under the all-
crimes concept. Executive direction of its operations comes from the 
ACTIC Management Board, which consists of command representatives of 
participating agencies. The board sets investigative and intelligence 
priorities, which include:
        <bullet> Terrorism-related crimes
        <bullet> Critical infrastructure
        <bullet> Threats to government and law enforcement agencies
        <bullet> Transnational and traditional organized crime
        <bullet> Threats to special events
        <bullet> Identity theft
        <bullet> Document fraud
        <bullet> Narco-terrorism
        <bullet> Airport-related incidents
        <bullet> Major arsons
        <bullet> Hazardous materials
        <bullet> WMD-related incidents
        <bullet> Explosive-related incidents
        <bullet> International incidents with local impact
        <bullet> Border-related crimes.
    ACTIC personnel conduct intelligence and criminal investigations 
\1\ and respond to CBRNE incidents. This concept allows ACTIC to be a 
conduit for information and enables its staff to apply that information 
to ongoing investigations.
---------------------------------------------------------------------------
    \1\ ACTIC personnel generally do not investigate drug crimes. These 
are handled by the two HIDTA Intelligence Support Centers in Arizona. 
The HIDTA intelligence operation, while not housed at ACTIC, is still 
commanded by the DPS Intelligence/ACTIC Bureau commander.

Primary Responsibilities
The ACTIC is responsible for:
        <bullet> Providing tactical and strategic intelligence 
        collection, analysis and dissemination support to Federal, 
        State, and local law enforcement agencies.
        <bullet> Maintaining and disseminating an ongoing threat 
        analysis.
        <bullet> Providing informational support to the governor and 
        other governmental leaders.
        <bullet> Maintaining the Automated Trusted Information Exchange 
        (ATIX), secure Web site portal for the dissemination and 
        exchange of information to law enforcement and public/private 
        stakeholder agencies.
        <bullet> Functioning as the State's central point of 
        dissemination for Homeland Security Threat Level Conditions and 
        other information generated by DHS, FBI, and other Federal, 
        State, and local agencies.
        <bullet> Maintaining a liaison program with State executive 
        agencies and the private sector.
        <bullet> Providing training on intelligence and the role of 
        field officers and citizens in preventing terrorist attacks.
        <bullet> Maintaining databases to support ongoing 
        investigations, and incorporating existing database links to 
        other agencies.
        <bullet> Maintaining a 24/7 tip/lead number. .
        <bullet> Maintaining a 24/7 research capability. .
        <bullet> Acting as a central point of contact for coordinating 
        the response to suspected biological incidents, including the 
        deployment of DPS and other State agencies.
        <bullet> Maintaining direct liaison with the FBI JTTF, U.S. 
        Attorney's Office Anti-Terrorism Advisory Council, and other 
        Federal, State, local and tribal law enforcement agencies.

    All-Crimes Analysis Focus: Strategic and Tactical
    ACTIC is unique in that it does both criminal and intelligence 
investigations. A key component is its analytical and research staff, 
which includes both tactical and strategic analytical components. 
Tactical analysts are assigned to individual intelligence and 
investigative squads to provide case-specific support. Strategic 
analysts work at the bureau level, looking at the global picture and 
monitoring groups that operate internationally.
    Both tactical and strategic analysts are familiar with the center's 
ongoing investigations and thus interact daily with one another. Co-
locating the facility means this same dynamic holds true with ACTIC 
staff, JTTF members, and the FBI's Field Intelligence Group. The center 
also holds a semi-monthly briefing facilitated by supervisory personnel 
and attended by ACTIC and FBI personnel.
    ACTIC staff fuses all available information and intelligence to 
create actionable or strategic products. Leads that do not fall under 
one of the ACTIC's priorities are forwarded to the appropriate 
investigative agency or component. Analysts maintain contact with the 
receiving agency in order to provide follow-up support. ACTIC's squads 
also work collaboratively with their ``sister'' JTTF squads, which 
enables them to pass cases that, for example, originated at the local 
level but would be better served through the JTTF and vice versa.

Product Dissemination
    Dissemination of intelligence products is accomplished primarily 
through e-mail. This includes a bi-weekly, two-page intelligence 
briefing that covers significant statewide or international events and 
their potential impact on the area. ACTIC also sends out alerts, 
warnings, and general information bulletins.
    ACTIC added a proviso to its dissemination strategy, which requires 
recipients to agree to its ``ACTIC Information, Classification, Access, 
Dissemination, Storage and Destruction Policy.'' The policy outlines 
the various classifications of information, and governs how the 
information is to be handled and disseminated to other organizations, 
agencies, and entities. ACTIC is also posting many of its documents on 
secure Web sites. It maintains a Special Interest Group (SIG) on the 
FBI's Law Enforcement Online (LEO). All law-enforcement sensitive 
documents are posted and archived on its LEOSIG site and on DHS's 
Homeland Security Information Network (HSIN).
    The goal of ACTIC's evolving dissemination strategy includes 
posting documents on a secure Web-site to reduce the use of e-mail as a 
communication tool. ACTIC's third-party dissemination policy has 
reduced its recipient list from 1,000 to about 400, all of whom agree 
to adhere to the policy. ACTIC uses its public Web site to communicate 
with citizens and non-law enforcement agencies.

Liaison and Outreach: Terrorism Liaison Officers
    The center has a robust Terrorism Liaison Officer (TLO) Unit. A TLO 
has been identified in all 151 of the State's law enforcement agencies 
to act as a link between ACTIC and their agency. This program has been 
expanded to the fire service and to certain community and private 
sector organizations. The TLO Unit at ACTIC is staffed by both 
detectives and fire captains who are responsible for coordinating the 
program statewide. TLOs respond to major incidents throughout the 
State, which provides a ``reach back'' link to the ACTIC.

Critical Infrastructure
    ACTIC is also responsible for establishing a system to identify the 
State's critical infrastructure and for conducting threat and 
vulnerability assessments. The WMD/Infrastructure and Threat 
Vulnerability Assessment Unit and the TLO Unit conduct these 
assessments. These multi-agency units are staffed by personnel with 
expertise in infrastructure and vulnerability assessments, as well as 
response to WMD events.
    Further expansions are planned for the non-law enforcement public 
and private stakeholders. For example, ACTIC has partnered with the 
Rocky Mountain Information Network, a RISS project, to deploy its 
Automated Trusted Information Exchange (ATIX) program. This will 
provide a participant Web site, secure e-mail, specific community 
groups for the exchange of information between like disciplines, and a 
method of providing them with real-time information that also allows 
them to send information back to ACTIC.

Budget
    The cost of developing ACTIC was about $3.5 million, which was 
covered by grant funds from the State. The FBI provided $500,000 to pay 
a portion the building costs, and also agreed to pay a portion of the 
lease cost. Total initial start-up costs were about $5.8 million, which 
included two years rent on its facility.

Authority and Agreements
--------------------------------------------------------
Authority
    The Phoenix Metropolitan Medical Response System (MMRS) was 
established in 1997 to provide an operational framework that would 
govern the use of personnel and equipment in situations that require a 
multi-agency or multijurisdictional response to events involving 
weapons of mass destruction.
    In 2002, in an effort to improve the coordination between all 
levels of government and the private sector, Arizona appointed a 
Homeland Security Director to advise the governor and oversee the 
State's homeland security efforts. In 2006, the State legislature 
created a separate Department of Homeland Security and a Homeland 
Security Council charged with oversight of the State's efforts, with 
setting homeland security policy, and providing input to the governor 
on homeland security strategy.
    The ACTIC Management Board, comprised of representatives from 
member agencies, oversees ACTIC activities and meets bi-monthly.

Agreements
    All of the agencies that have assigned people to the ACTIC have 
signed Intergovernmental Agreements/Memorandums of Understanding that 
outline their roles and responsibilities, as well as the role and 
responsibilities of DPS. The agreement mandates a time commitment by 
the agency, requiring that personnel assigned there stay at least three 
years. This ensures consistency in long-term investigations, as well as 
a return on the financial investment in training personnel. Minimal 
turnover in personnel also reduces the number of security clearance 
requests.

Relationships with Other Information Analysis Centers and Groups
----------------------------------------------
Regional Advisory Councils
    Homeland Security Regions are defined in Arizona by five geographic 
areas that span the State's 15 counties and 22 tribal nations. Each 
region has a Regional Advisory Council (RAC) that works with 
incorporated cities, towns, municipalities, unincorporated areas, and 
tribal nations. Representatives for each council, appointed by the 
governor, include those from the area fire service, law enforcement, 
tribal, emergency management, local officials, DPS, and a public health 
representative.
    The RACs develop, implement and maintain regional homeland security 
strategies. They also assist in statewide risk assessment, collaborate 
with other RACs and organizations to ensure successful integration of 
homeland security programs and initiatives, and allocate State homeland 
security grant funds. The ACTIC regularly supplies information to each 
RAC and a representative of ACTIC sits on each council as a non-voting 
advisory member. This ensures statewide coordination.
    One of the State's most critical issues is that border cities have 
traditionally provided emergency response for events that occur at the 
border. These cities have maintained close working relationships with 
their sister cities in Mexico and over the past years, they have signed 
agreements that govern how they work together during HazMat and other 
critical incidents. Thus, while these cities and counties have a 
``first responder'' role, they have minimal involvement in Federal 
border security planning activities. This changed in 2003, when the 
U.S. Mexico Border Health Commission established the Terrorism and 
Public Health Emergency Preparedness Coordination Team, which provided 
an opportunity to coordinate homeland security-related planning efforts 
among Federal, State, local, tribal, and Mexican officials.
    Also in 2003, the Arizona-Mexico Commission Board of Directors 
approved a proposal to appoint a Border Coordination Officer to work 
with the mayors of border communities, and with State and Federal 
officials to determine the priority issues along the border. These 
entities are customers of the ACTIC, which provides information, 
support and threat assessments, as needed.
    ACTIC works closely with the two High Intensity Drug Trafficking 
Area's (HIDTA) Intelligence Support Centers in the State. ACTIC assists 
with border initiatives through its all-crimes approach, and draws from 
HIDTA information relevant to its own investigations.
    Although immigration law violations are outside the purview of 
ACTIC's investigations, there are 12 DHS Immigration and Customs 
Enforcement (ICE) agents housed at the center as well as a number of 
DHS Customs and Border Protection (CBP) agents. ACTIC works with these 
entities to prevent terrorist smuggling across the U.S.-Mexico border.
    None of the State's Indian tribes have personnel assigned to ACTIC, 
but there are several nations that have designated TLOs. ACTIC 
personnel coordinate closely with these tribal TLOs. There are mutual 
aid agreements in place with the tribes, which is particularly 
important since any type of terrorist act on Indian land would fall 
under Federal jurisdiction. To facilitate investigations, some ACTIC 
personnel are commissioned by the Bureau of Indian Affairs or tribal 
police to carry out law enforcement duties on tribal land.

Smart Practices and Special Projects
----------------------------------------------
Terrorism Liaison Officer and Community Liaison Programs
    TLOs are an integral component to the center's work and are 
important contributors of information coming from the street level. 
They are specifically trained for ACTIC operations and are required to 
respond to major incidents in order to act as a link between the 
incident commander and ACTIC. At the scene, they are the intelligence 
cell for the on-site Incident Command System. When carrying out their 
regular duties, they act as intelligence officer for their particular 
agency.
    There are two levels of TLO: Level A TLOs respond to incidents 
after undergoing at least 40 hours of training. They operate under an 
Intergovernmental Agreement between their agency and the ACTIC, and are 
obligated to devote at least 40 hours per month to ACTIC. When they are 
not at an incident, they are gathering information relevant to ACTIC's 
investigative priorities or assisting with vulnerability assessments in 
their jurisdiction.
    Level B TLOs provide 20 hours per month in support of ACTIC 
operations. Level A and B TLOs come from Federal, State, and local law 
enforcement and fire service agencies as well as the Arizona National 
Guard. ACTIC has 92 terrorism liaison officers.
    The Community Liaison Program (CLP) consists of private sector and 
non-law enforcement government sector personnel. The CLP personnel have 
similar duties to those of the TLOs, but they do not respond to 
incidents unless they are subject matter experts or are part of an 
ACTIC advisory team. CLP personnel are chosen based on areas identified 
by the FBI's Infragard program--those that have a role in homeland 
security or are responsible for an area or sector of critical 
infrastructure. Training specific to CLP responsibilities is provided 
by ACTIC. CLP disciplines include information technology, government 
services, emergency services, public health, water supply, agriculture 
and food, banking and finance, energy, chemical industry, education, 
hospitality, defense, postal and shipping, telecommunications, 
transportation, and community groups.

Facial Recognition
    One of the most innovative components of ACTIC is its partnership 
with the Maricopa County Sheriff Department's Facial Recognition Unit. 
The unit is building a database that can match suspect photos with one 
of millions of photos drawn from a variety of sources. ACTIC is working 
with Transportation Security Administration (TSA) and U.S. Customs to 
deploy the system in the field. The goal for the facial recognition 
database is to include all Federal booking and arrest photos, enabling 
investigators to access at least 9 million photos in less than 10 
seconds.
                ACTIC participating agencies include: FBI, ATF, U.S. 
                Postal Inspection Service, TSA, ICE, U.S. Border 
                Patrol, Arizona Department of Public Safety, Arizona 
                National Guard, Arizona Department of Corrections, 
                Arizona Department of Revenue, U.S. Department of 
                State, Arizona Motor Vehicle Department, Arizona 
                Attorney General's Office, Defense Intelligence Agency, 
                Federal Air Marshal Service, Rocky Mountain Information 
                Network, Phoenix Police Department, Phoenix Fire 
                Department, Glendale Fire Department, Mesa Fire 
                Department, Mesa Police Department, Glendale Police 
                Department, Maricopa County Sheriff's Office, Air Force 
                Office of Special Investigations, U.S. Secret Service, 
                Internal Revenue Service, Maricopa County Attorney's 
                Office, Scottsdale Police Department, Tempe Police 
                Department, Arizona Department of Economic Security, 
                Arizona Department of Liquor License and Control, and 
                the U.S. Department of Homeland Security.
    Other units housed at the ACTIC include:
        <bullet> DPS Computer Forensics
        <bullet> DPS Violent Criminal Apprehension Program (VICAP)
        <bullet> DPS Geographic Information
        <bullet> Arizona Department of Liquor License and Control, 
        Fraudulent Identity Task Force
    These units provide direct support to ACTIC ongoing operations and 
complement the available support to other agencies.

    Ms. Harman. Right on time. Thank you, Mr. Beasley, and you 
can bet on our calling on you as we work on this issue of a 
national strategy. It is absolutely critical, in our view, that 
the state and local perspectives get into all of this.
    After all, you are the customer, and the whole point is to 
give you added tools to know what is going on in your 
neighborhood, so we can prevent and disrupt potential harm 
against Americans.
    Let me make a couple of comments about the testimony and 
ask a few questions.
    Mr. Tomarchio, you gave us a lot of statistics, and more is 
in your written testimony, about all the goals and this date 
something was set up and that date something else was set up 
and all of these people are moving around.
    I think that is useful, but I think that is not the 
objective. The objective is, as Mr. Beasley said, in real-time, 
to provide accurate, actionable intelligence to those in our 
communities who need it so that they can prevent harm.
    So I think we have to focus on the objective. These fusion 
centers are not there so that some certain number of DHS 
personnel can move there, some amount of money can move there, 
but so that some amount of accurate intelligence can move 
there.
    Is there any disagreement with what I just said?
    Mr. Tomarchio. None from me.
    Ms. Harman. All right. So let me just ask this question to 
each of you. There are issues with providing connectivity to 
these centers. There are duplicative networks. I think you all 
know that. There is HSIN, there is RISSNET. Every time we have 
been to these places, they have shown us four or five different 
systems, told us about what their perspective is on each of 
these, the advantages, disadvantages, but they have complained 
about this.
    Similarly, there are problems with security clearances. 
There are problems between you, DHS and FBI, with respect to 
clearing people and there are problems clearing people.
    So if our bottom line here is to get real-time intelligence 
to people who need it and have these fusion centers be part of 
that function, how does each of you, and I would like you to 
comment, Mr. Beasley, after they answer, to see whether you 
think their suggestions are the most useful suggestions, how is 
each of you planning to deal with this issue of connectivity 
and security clearances?
    Mr. Tomarchio. I will go first. Madam Chairwoman, you are 
absolutely right. I have traveled to about 29 fusion centers, 
and I can remember when I went to the ACTIC, I was told that 
they can go to LEO, they can go to RISSNET, they can go to 
HSIN.
    Ms. Harman. Why don't you spell these terms for the record, 
because some of the public watching won't know what you are 
talking about?
    Mr. Tomarchio. Okay. The homeland security information 
network, HSIN. HSDN, the homeland security data network. LEO is 
the law enforcement online. The individuals who are working 
down in the fusion centers sometimes feel that they have to 
forum shop, to go around and check which system is up.
    We realized that, and I know that the FBI and the DHS are 
working to find a common portal of access between the RISSNET 
and the LEO system and the HSIN system.
    That is still being worked on and it is not completed yet. 
It is in the hands of the technical folks, but we do realize 
that. I asked the question myself, I said, ``Why can't this 
just be like AOL, and somebody goes there and finds the place 
they want to go? It is your single access point.''
    So I think we do realize that and we are working on that.
    Mr. Mines. I concur with my colleague. It is a huge 
problem. Based on my visits to fusion centers across the 
country and some of the feedback I get, we are looking at 
various systems. I know that we have provided connectivity for 
our persons at the fusion centers through FBINET to allow them 
functionality in that space.
    However, that doesn't satisfy the issues that are addressed 
by the fusion center personnel. Again, we are looking at HSDN 
to be that portal, I believe, but, again, our technical persons 
from both DHS and FBI are looking at that.
    Ms. Harman. And security clearances, very quickly. What 
efforts are you making to have the same requirements and to 
make this easier for people?
    Mr. Mines. There are two issues with security clearances. 
One was the time it took to the get the security clearances for 
the persons in the fusion centers. And at the FBI, we 
recognized that issue and we were able to cut in half the time 
it took to process the security clearances for persons in the 
fusion centers.
    The second issue is a communitywide issue that we struggle 
with, not only with FBI and DHS, but also throughout the 
intelligence community. As a matter of point, the ODNI 
recognized that as an issue in his 100-day plan as something 
that he needs to address and solve.
    My security division is working with the ODNI to find a way 
to have a common process to pass security clearances and that 
is the issue, passing from one agency to the other.
    Ms. Harman. Thank you.
    Mr. Beasley, you get the last word here.
    I just would note for everyone that this subcommittee is 
working on the subject of over-classification. If we could come 
up with something much simpler, we believe we could find a way 
around this serious security clearance problem.
    Mr. Beasley?
    Mr. Beasley. I will tackle the security clearance problem 
first. We are probably the exception to the rule in Arizona. We 
have no problem with the security clearance issue.
    We partnered early on with the FBI. They have virtually 
cleared all 240-some state and local, not only law enforcement, 
but fire service, to at least the secret level. So the security 
clearance issue is not a problem to us.
    As it relates to the data sharing, that is a problem and it 
is especially a problem for our analysts that have to go into 
the multiple systems. And we basically deal with two types of 
information. The first type would be DHS information that is 
more strategic in nature, but I think more importantly to us at 
the operational level is tactical intelligence information that 
is very case specific and that talks about specific groups, 
specific individuals, and that is the type of information that 
we normally would get from the Federal Bureau of Investigation, 
who is our very close investigative partner.
    So I think we are really talking about two types of 
information that is disseminated to state and local fusion 
centers.
    Ms. Harman. Thank you very much.
    Mr. Dent, the new ranking member, is recognized for 5 
minutes.
    Mr. Dent. Thank you, Madam Chairman.
    I will start with my first question to Mr. Tomarchio and 
Mr. Mines.
    As you know, these fusion centers are staffed largely by 
law enforcement personnel. Should this staffing be expanded to 
include representatives from other disciplines? If you agree 
with that, what other sorts of disciplines should be 
represented in the makeup of any given fusion center?
    Mr. Tomarchio. Mr. Dent, I believe that it should be 
expanded. We have sat down in some states that other 
individuals from, for example, the fire service or fish and 
game or public health officials are sitting in fusion centers.
    In some cases, there are even some private sector 
representatives in a fusion center or have access to a fusion 
center.
    I think this is something that is going in the right 
direction, because they provide skill sets and they provide 
knowledge bases that might not be readily available to a law 
enforcement officer or National Guard officer that is sitting 
in the fusion center.
    So I do support that.
    Mr. Dent. Mr. Mines?
    Mr. Mines. I concur with my colleague. I think earlier you 
heard about the migration of the fusion centers going from just 
terrorist activity to all crimes, all hazards. I think that is 
a good thing.
    I think that it opens up more streams of information and 
intelligence that we can exploit. Also, in recognizing the up-
tick in violent crime that we have read about lately, it is 
very important that these centers be in a position to support 
that.
    The public partnership is an important piece. Some fusion 
centers are ahead of the curve with that and that is the 
direction in which we believe they should go.
    Mr. Dent. Thank you. Also, in the CRS report, it was noted 
that many of the state centers indicated that there were 
problems with database integration and making sure that the 
personnel working in those centers had access to all the 
pertinent databases.
    I think that is an issue in my own state, as well. Why is 
that so? Why are we having this integration problem? Is it a 
technological problem?
    Mr. Tomarchio. I think the problem is, again, there is a 
proliferation of databases and obviously the customers out in 
the fusion centers don't want to see nine places to go to get 
information. They are looking for a single point of contact.
    I think it is now a technical issue that we are addressing 
to try and shrink this profusion of databases down to one or 
two single points of contact or ports of entry and, as we 
testified earlier, that is being looked at by both FBI and DHS 
and worked on by our technical folks.
    Mr. Dent. So it is not a matter then of state officials 
being denied access to appropriate data because of security 
clearance issues, then.
    Mr. Tomarchio. I think that, again, these databases operate 
at the secret level and individuals who are accessing them have 
secret clearances.
    Mr. Dent. So the issue is largely technological, software. 
That seems to be the issue then.
    Mr. Tomarchio. Well, I am not an IT guy, but I would think 
a lot of this is really trying to get our technical folks to 
get their arms around it and find a way to make this much more 
user-friendly.
    Mr. Dent. Mr. Mines?
    Mr. Mines. I think it is a two-pronged problem. I think it 
is technological, and I think it is also the time it takes to 
get security clearances done and providing security clearances 
for as many persons in the fusion centers as we can.
    We also have to remember that a lot of these databases 
existed before the fusion centers did. So we have to ensure 
that as we brought all those pipes to the fusion centers, that 
they have access to these databases that are the most robust 
systems and ensure that we can service them with one, maybe two 
systems, instead of the 16 I have heard that they complain 
about in the centers.
    Mr. Dent. Mr. Beasley, do you want to add anything on this 
from your perspective?
    Mr. Beasley. That is absolutely correct. Again, we don't 
have any problem with the security clearance issue, but just in 
our center alone, we have, not counting our federal classified 
systems, we have over 100 databases that we routinely access, 
and it is extremely labor intensive and time consuming.
    And I am not a technical person either, but we have had our 
technical people in, and they basically throw their hands up. 
Ideally, there would be a black box that you could put on your 
system and it would do all that, but to date, at least no one 
in our shop has been able to come up with that technology.
    Mr. Dent. Just, finally, Mr. Mines, I guess, might be the 
best person to ask this question to. How do you feel is the 
best way for us to address privacy concerns raised by the 
existence of these fusion centers?
    Mr. Mines. I think the best way to handle it is how we are 
handling it, through training, training the personnel in the 
fusion centers as to how to handle sensitive information, how 
to store sensitive information.
    I think through DHS, we have a pretty robust training 
program, and I do know that the state and locals have their own 
training programs that speak to that issue.
    Mr. Tomarchio. I would concur with Mr. Mines that this is a 
training challenge, and it is one that I think both the FBI and 
the DHS are addressing robustly.
    Ms. Harman. I thank you, Mr. Dent.
    The chair now yields 5 minutes to Mr. Perlmutter of 
Colorado for questions.
    Mr. Perlmutter. Thanks, Madam Chair.
    Mr. Tomarchio, let me just start with you with the first 
question I asked the last panel. Are you in charge of fusion 
centers for DHS or who is?
    Mr. Tomarchio. I think, right now, fusion centers are in 
charge of fusion centers. These are, as you know, state 
organizations, funded by the states in most cases, stood up by 
the states.
    We don't operate in a position where we can dictate to 
them, nor should we, how they operate their fusion centers. So 
I would say right now, the way it works is the fusion centers 
are in charge of their operations.
    Mr. Perlmutter. But from DHS' point of view, in terms of 
providing information, intelligence, analysis, who is in charge 
of working with the fusion centers? Let me put it that way.
    Mr. Tomarchio. The executive agent for working with the 
fusion centers comes out of my office, the office of 
intelligence and analysis.
    Mr. Perlmutter. And, Mr. Mines, is there anybody within the 
FBI that is sort of your job is to work with these fusion 
centers and make sure that the FBI is working as cooperatively 
and fully as possible with the different fusion centers?
    Mr. Mines. That responsibility sits with the directorate of 
intelligence under the assistant director, Murphy.
    Mr. Perlmutter. I know in Colorado, and it sounds like the 
Arizona experience is better than Colorado, where we really 
have just a small group that is developing, and it will get a 
lot bigger over the course of the next year with the convention 
coming.
    But two complaints have been on the credentialing side as 
to security clearance and then really not the quality, but the 
substance of the information that is shared from the top down.
    And I think the response is you don't get much good 
information going from the bottom up, because they feel it is 
just a one-way street.
    Can you react to that, anybody?
    Mr. Tomarchio. Congressman, I know that that is an issue 
that concerns us greatly. We want to provide intelligence to 
the fusion centers that is actionable intelligence, that is 
important to them, and sometimes I think there is a cultural 
bias in the intelligence community which, for many years, wrote 
strategic products for the intelligence community or for the 
beltway.
    We now have to work to make sure that the intelligence that 
we write is of interest and usable for the cop on the beat or 
the guy that is in charge of security in the harbor. I think 
that that is a work in progress.
    We are doing that right now, in many cases, with regard to 
specific reports, such as prison radicalization, WMDs. We 
recently had a conference at Camp Parks, California with about 
500 analysts from different states to discuss the threat of 
WMDs and what they would need to know about in their particular 
areas.
    That is a work in progress, though.
    Ms. Harman. Mr. Perlmutter, excuse me for interrupting, but 
we have four votes coming up and I think what we need to do is 
limit questions by each member so that we can adjourn this 
hearing before the votes, in order to give you a chance to have 
a day, and to give us a chance to go on with the business of 
the House.
    Mr. Perlmutter. I will yield back, Madam Chair.
    Ms. Harman. I appreciate it.
    The chair now yields 3 minutes for questions to Mr. Carney 
of Pennsylvania.
    Mr. Carney. Thank you, Madam Chair. This will be quick.
    Mr. Mines, the GAO says that there is sometimes trouble 
with the FBI accepting other clearances of other organizations, 
despite federal law.
    Can you comment on that?
    Mr. Mines. Yes. As I mentioned earlier, that is an issue 
that not only the FBI and law enforcement, but the intelligence 
community is struggling with, handling.
    Mr. Carney. But why are they struggling with it? I mean, 
there is a law that says that this is how it is supposed to be. 
There shouldn't be a struggle, I don't think, should there?
    Mr. Mines. I agree. There is no baseline difference, but I 
think the law allows each agency to provide additional 
requirements in their security clearances and I think that is 
the issue, according to my security division.
    But we are looking at that now, not only in the fusion 
center arena, but also in joint duty issues in the intelligence 
community, we are finding those issues, too. So we are looking 
to streamline that and address that appropriately.
    Mr. Carney. Are you talking about compartments here or 
compartments within a certain clearance level? That is not what 
you are referring to then.
    Mr. Mines. No, no, no. No, no.
    Mr. Carney. I do intelligence, too, and the inability to 
share information, of course, hamstrings us and really 
diminishes what we are able to do and how quickly we are able 
to do it.
    So please resolve that.
    Thank you, Madam Chair.
    Ms. Harman. Thank you very much, Mr. Carney.
    The chair now yields 3 minutes for questions to Mr. Dicks 
of Washington.
    Mr. Dicks. Thank you.
    Mr. Beasley, do you believe that Arizona's fusion center is 
producing useful information, and what steps are you taking to 
continually improve those products?
    Mr. Beasley. Yes, we are. I can absolutely tell you that 
the information generated through the center is helping to 
solve crimes and to further counterterrorist investigations.
    And we do that through our analytical component, through 
our community outreach component and through our training 
component. In essence, we believe, no disrespect to DHS and to 
the FBI, but if we are going to stop a terrorist act in this 
country, it is going to be through a contact by a field 
officer, a citizen, a field detective.
    So we generate a lot of our training activities and 
awareness and what to look for to these really the true first 
line of defense, and this is why we feel we have been so 
successful.
    Mr. Dicks. Mr. Mines, let me ask you this. Do you think we 
should have these fusion centers in each state or should we be 
doing these regionally and using the New York City model as the 
approach that should be taken with a lot more staff, a lot more 
federal involvement?
    I mean, you could still have fusion centers in every state, 
but what about having a regional group in the cities in the 
country to have something like New York has. Should that be the 
model that we look at to expand this grassroots effort?
    Mr. Mines. That is certainly something that we should look 
at. Again, keep in mind, the fusion centers were first stood up 
to address the issues of that state and local area. We have to 
ensure that their needs are met.
    But, again, the New York division is a model, has a lot of 
good best practices. That would facilitate the collection and 
analysis of information on a regional level, which would give 
us a better national picture.
    Mr. Dicks. Thank you.
    Ms. Harman. Thank you, Mr. Dicks.
    The chair now welcomes and yields 3 minutes to Mr. Langevin 
of Rhode Island, who co-led the CODEL we recently took to New 
York City to see the radiological threat in that city.
    Mr. Langevin. Thank you, Madam Chair, and I appreciate your 
leadership on these fusion centers and your leadership on 
intelligence and information sharing issues in general.
    Let me just start. I know in reading the report, the CRS 
report was very critical of fusion centers, and yet we are 
going to get this right somehow. It is my hope that these 
fusion centers can be salvaged, that they can be made to work.
    I am big believer, as is, I believe, the chair, that the 
best intelligence, good intelligence information sharing will 
always be the pointy tip of the spear, and it is always going 
to be most effective at keeping us safe and being able to 
target our resources.
    I think it was you, Mr. Beasley, who said that most of the 
time, in terms of identifying terrorist activity, it is going 
to come from the cop on the beat, the detective, in their work, 
and I couldn't agree more, and we need to make sure that the 
support, the guidance that homeland security, that FBI is 
providing is making sure that they are telling the people on 
the front lines what to look for, and the people on the front 
lines are telling you and sharing what they are seeing.
    I don't know that we have that effective two-way 
communication really going on right now, as well as the federal 
government being able to actually share actionable intelligence 
with our fusion centers with the people on the front lines.
    Let me just ask this. Are we making progress on common 
databases and making sure that we are not drawing on multiple 
databases, but we have really one database? Are we moving in 
that direction, so that the left hand knows what the right hand 
is doing from the top on down?
    Mr. Tomarchio. Certainly, Congressman, I think that that is 
a goal that we are striving for, to find that single point of 
entry so that you don't have this forum shopping problem that 
we spoke about earlier. It is a big problem and it has to be 
fixed, I believe.
    Mr. Langevin. And what about the common training programs, 
so that we are training people in these fusion centers so that 
they can kind of change the culture of things that they may 
have been used to doing in terms of law enforcement, but we 
better train and more standardize the training of intelligence 
gathering and intelligence sharing? Can you comment on that?
    Mr. Tomarchio. Certainly. Our department is engaged in a 
fairly muscular approach to training. We have mobile training 
teams going out with reports officer courses and intelligence 
writing and analysis courses.
    But we need to do more of that and we need to bring those 
courses out to the fusion centers. It is very difficult for 
them to detail people back into the district for 3 weeks of a 
course.
    So we are doing that, and I think the FBI is also doing 
that, but we are both going to continue to do that and probably 
expand that training.
    Mr. Langevin. I know the chair and I have discussed that 
issue of wanting to standardize the training that everyone goes 
through in these fusion centers, and I think that that is 
something we need to pay more attention to.
    With that, I will end my questions, and I yield back the 
balance of my time.
    Ms. Harman. Thank the gentleman for yielding back.
    As I mentioned, we have votes on the floor, although the 
clock looks a little strange.
    I would like to thank our second panel for your testimony. 
I think the entire day was very useful, and this subcommittee 
will continue to focus on fusion centers and to improve the 
operations of fusion centers as a very important tool for 
finding out what harms may be plotted against us and preventing 
them from occurring.
    Thank you very much.
    The hearing is adjourned.
    [Whereupon, at 11:44 a.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
